<html>
<title> - [H.A.S.C. No. 111-8] ACQUISITION AND DISPOSAL OF MILITARY LANDS: DEPARTMENT OF DEFENSE'S REAL PROPERTY MANAGEMENT CHALLENGES IN THE 21ST CENTURY
</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                          [H.A.S.C. No. 111-8]
 
                      ACQUISITION AND DISPOSAL OF

                     MILITARY LANDS: DEPARTMENT OF

                        DEFENSE'S REAL PROPERTY

                         MANAGEMENT CHALLENGES

                          IN THE 21ST CENTURY

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 24, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
49-449                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
                Dave Sienicki, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                     Megan Putnam, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, February 24, 2009, Acquisition and Disposal of Military 
  Lands: Department of Defense's Real Property Management 
  Challenges in the 21st Century.................................     1

Appendix:

Tuesday, February 24, 2009.......................................    35
                              ----------                              

                       TUESDAY, FEBRUARY 24, 2009
  ACQUISITION AND DISPOSAL OF MILITARY LANDS: DEPARTMENT OF DEFENSE'S 
        REAL PROPERTY MANAGEMENT CHALLENGES IN THE 21ST CENTURY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Arny, Wayne, Deputy Under Secretary of Defense, Installations and 
  Environment....................................................     3
Billings, Kevin W., Acting Assistant Secretary of the Air Force, 
  Installations, Environment and Logistics.......................     9
Eastin, Hon. Keith, Assistant Secretary of the Army, 
  Installations and Environment..................................     5
Penn, Hon. BJ, Assistant Secretary of the Navy, Installations and 
  Environment....................................................     6

                                APPENDIX

Prepared Statements:

    Arny, Wayne..................................................    42
    Butterfield, Hon. G.K........................................    60
    Forbes, Hon. J. Randy........................................    41
    Ortiz, Hon. Solomon P........................................    39

Documents Submitted for the Record:

    Letters of Hon. Gene Taylor and Charles S. Abell Regarding 
      Armed Forces Retirement Home Property Sales................    63

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................    69
    Mr. Forbes...................................................    69

Questions Submitted by Members Post Hearing:

    Mr. Butterfield..............................................    82
    Ms. Giffords.................................................    80
    Mr. Loebsack.................................................    79
    Mr. Ortiz....................................................    73
  ACQUISITION AND DISPOSAL OF MILITARY LANDS: DEPARTMENT OF DEFENSE'S 
        REAL PROPERTY MANAGEMENT CHALLENGES IN THE 21ST CENTURY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                        Washington, DC, Tuesday, February 24, 2009.
    The subcommittee met, pursuant to call, at 9:05 a.m. in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order. I want to thank 
our distinguished witnesses for being before the subcommittee 
today.
    Today the Readiness Subcommittee will hear about how the 
Department of Defense (DOD) acquires and disposes of real 
estate; however, before we start with the real estate details, 
it is important to talk about the need of the services. The 
need to train as we fight is fundamental to our armed forces. 
To this end I am surprised that the Department is just now 
realizing that our armed forces are significantly short of 
adequate training space. And I found this because, as you well 
know, the committee does a lot of traveling, too.
    What we have thought after the latest Base Realignment and 
Closure (BRAC), the latest BRAC round that we had, and Grow the 
Force initiative, that the armed forces would have been in a 
better position to meet our training requirements; however, I 
know that after the Army completes their growth of the Army 
initiative, they will still have a training deficit of almost 
five million acres, five million acres.
    I believe that it may be time to fundamentally change the 
method that we use to address training requirements. The 
development of underutilized lands is clearly in the 
Department's long-term interest.
    On a related subject, the Department owns interest in a 
broad range of real estate. It is time the Department lives up 
to their implied covenant which exists in military 
installations and provide the investment to restore 
environmentally damaged lands. We need to allow communities the 
opportunity to develop, to redevelop and restore a vibrant tax 
base that truly allows economic development. Prompt disposal 
and redevelopment should be at the core of any excess land 
decision process.
    Gentlemen, I think that we have a lot to discuss today, and 
I look forward to hearing how you intend to address these 
important issues.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 39.]
    Mr. Ortiz. The Chair recognizes the distinguished gentleman 
from Virginia, my good friend Mr. Forbes, for any remarks that 
he would like to make. Mr. Forbes.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. Once again I thank you 
for your leadership and for holding this hearing this morning.
    And we deal with a great many critical issues on this 
subcommittee, as you have pointed out, from time to time, but 
there is probably no issue more difficult and fraught with 
emotion than with the use of land. This hearing addresses both 
the disposal property under the base closure, or BRAC, process 
and the acquisition of land for training. And while both 
aspects of real estate management are important, I believe that 
the acquisition of land is one of the toughest issues we face, 
not because it is political, but because it hits a core 
American value, the right to private property.
    Indeed, the fifth amendment to the Constitution forbids the 
Federal Government from taking private property for public use 
without just compensation. It is, in fact, the protection of 
those rights that many of our citizens believe is the reason 
why we have military in the first place.
    As weapon systems of all the military services can be 
employed at greater and greater distances from the target than 
in the past, the need for training spaces, including air, sea 
and land ranges has grown. At the same time the population of 
the United States continues to multiply, and military 
installations become ever more encroached by this population 
expansion. Finding available open space for military training 
is very difficult, as the Army and Navy have recently 
experienced.
    Mr. Chairman, I am a great supporter of our military and 
have worked hard to ensure that the Army's planned BRAC-related 
growth at Fort Lee in my district goes as smoothly as possible. 
As you know, Fort Lee has been a military installation for some 
time, and the surrounding community is accustomed to military 
activities. However, the other end of the spectrum, the Navy 
wants to acquire a substantial track of rural land in Virginia 
and North Carolina to use as an outlying landing field, or OLF, 
for naval aviators to practice landing and takeoffs simulating 
conditions of darkness at sea.
    Our pilots need realistic training to maintain their 
skills. At the same time that the Navy seeks or is required to 
use the most aggressive form to acquire private property, we 
must ensure that the increased value of the training matches 
the government encroachment on personal property rights that 
are guaranteed in the Constitution. The Navy must be sensitive 
to the concerns of the surrounding community of any proposed 
field as jet noise will be a new and potentially irritating 
phenomenon to the heretofore peaceful rural location chosen.
    Mr. Chairman, I look forward to working with you and our 
witnesses to manage these difficult issues to the benefit of 
the military services and the civilian community, and I yield 
back the balance of my time.
    Mr. Ortiz. Thank you, Mr. Forbes, for your good statement, 
great statement.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]
    Mr. Ortiz. Our witnesses today include Mr. Wayne Arny, 
Deputy Under Secretary of Defense for Installations and 
Environment, Department of Defense; the Honorable Keith Eastin, 
Assistant Secretary of the Army, Installations and Environment; 
the Honorable BJ Penn, Assistant Secretary of the Navy, 
Installations and Environment; and Mr. Kevin Billings, Acting 
Assistant Secretary of the Air Force, Installations, 
Environment and Logistics. Without objection, the witnesses' 
prepared testimony will be accepted for the record.
    And, Secretary Arny, my good friend, I know most of the 
witnesses here for many years, we want to say thank you for 
joining us today. And it is good to see you again, Mr. Arny, 
and please proceed with your opening statement, sir.

  STATEMENT OF WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE, 
                 INSTALLATIONS AND ENVIRONMENT

    Mr. Arny. Thank you, Mr. Chairman, Congressman Forbes. It 
is nice to see you, sir, distinguished members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to address management of real property assets within the 
Department.
    As you have said, installations and ranges are the 
foundation of our security. These assets must be available when 
and where needed with the capabilities to support current and 
future military mission requirements. To meet these challenges 
we must continue to invest in them to preserve and enhance 
their military value for our training.
    The linkage between test and training-range resources and 
military readiness is fundamental. It is directly associated 
with success and survival in combat. Military services provide 
their training requirements using broadly similar frameworks. 
Those frameworks include an assessment of the national 
strategy, our weapons and related systems, and lessons learned 
from previous military experience in training. If the services 
think they need additional property, our policy requires them 
to prove their requirement cannot be satisfied internally or by 
use of property held by another military department or federal 
agency. If they are successful in doing that, then they must 
seek DOD approval before proceeding with any major land 
acquisition. And before we go and procure additional land, we 
must have specific congressional authorization. We must also 
comply with the requirements of the National Environmental 
Policy Act, or NEPA, before making a final decision to proceed.
    When DOD does acquire property, we follow the same 
statutory and regulatory requirements that are applicable to 
all federal real property acquisitions. These procedures ensure 
that the owners of real property that we seek to acquire are 
treated fairly and consistently. Under these regulations we 
first make every reasonable effort to acquire the property by 
negotiation. These negotiations with the owner often lead to 
unsuccessful property conveyance. But negotiations may not be 
successful for a number of reasons. There may be title defects 
or unclear ownership interest that cannot be resolved through 
negotiation. An otherwise willing seller may not agree with the 
government's opinion of the property's fair market value, or in 
some cases an owner may not wish to sell regardless of price.
    Only after negotiation with a property owner is 
unsuccessful would a military department ask the Department of 
Justice to initiate eminent domain proceedings. There are a lot 
of other details in that, but we believe these procedures 
balance well the government's need to acquire property for 
public military use with the rights of property owners to 
obtain just compensation when the government acquires their 
property.
    Let me turn to property disposal under BRAC, which I know 
is an issue that you have asked about. I want to emphasize that 
it is our policy to utilize fully all means of property 
disposal available to us in coordination with the affected 
communities and in consideration of their individual 
circumstances.
    Federal law provides us with an extensive array of legal 
authorities. These include transfers to other federal agencies, 
public benefit conveyances for the purposes such as schools or 
parks, economic development conveyances at cost and at no cost, 
negotiated sales to state or local government, conservation 
conveyances, and public sales. And we encourage the services to 
use all of these tools that are in our toolbox.
    As for economic development conveyances, or EDCs, in 
particular, the base closure statute authorizes us to convey 
real and personal property to a local redevelopment authority 
for the purpose of job generation on a closed military 
installation. The base closure law for BRAC 2005 asks the 
military department to seek to obtain fair market value 
consideration for EDC conveyance; however, the same statute 
also permits us to grant the community an EDC without 
consideration, also known as a no-cost EDC, subject to 
statutory requirements regarding the use of the property and an 
agreement for a speedy transfer.
    We are aware that some people have expressed an interest in 
amending current legislation to require that all the EDCs be at 
no cost, and we are told this is based on the premise that 
greater reliance on no-cost EDCs would generate economic 
recovery by speeding redevelopment of the property. We are 
examining this, but we are not aware of any data to support 
this premise.
    We are also concerned this might interfere with other 
conveyance mechanisms that communities use, especially public 
benefit conveyances. Most importantly, it is our experience 
that rather than cost versus no-cost EDCs, the far more 
significant challenges to rapid property disposal and 
redevelopment are, one, the requirement that DOD analyze 
potential future reuse alternatives under NEPA before conveying 
property; and, two, certain environmental cleanup constraints. 
At locations not subject to BRAC, we also dispose of excess and 
surplus real property, but we use General Services 
Administration (GSA), and they are essentially using the same 
mechanisms we do. Indeed most of our mechanisms derive directly 
from GSA.
    In closing, Mr. Chairman, thank you for this opportunity to 
testify. I appreciate your continued support and look forward 
to continuing to work with you on these important matters.
    Mr. Ortiz. Thank you, Mr. Secretary.
    [The prepared statement of Mr. Arny can be found in the 
Appendix on page 42.]
    Mr. Ortiz. Secretary Eastin, whenever you are ready, you 
can proceed with your statement, sir.

  STATEMENT OF HON. KEITH EASTIN, ASSISTANT SECRETARY OF THE 
              ARMY, INSTALLATIONS AND ENVIRONMENT

    Secretary Eastin. Thank you, Mr. Chairman, Mr. Forbes. I 
couldn't have said it better. My colleague Mr. Arny has about 
taken all the thunder I might have in this, other than I have a 
four-and-a-half million acres deficit that I am going have to 
deal with, and he has that, but somewhat more tangentially.
    I will try to be brief here. I know the committee has 
extensive business today.
    Managing the Army's real property assets from acquisition 
through our life cycle is an essential but complex task, and we 
use various tools to try to handle what our requirements are. 
Among the variables we must take into account are constantly 
evolving requirements due to our doctrinal changes. Changes in 
equipment, changes in technology, such as unmanned aerial 
vehicle use, over-the-horizon communication with other units 
expands what we need in our training ranges.
    What we try to do, as Wayne Arny has indicated, is use land 
acquisition as an absolute last resort. Before we get into 
that, we try to manage the ranges we have in different ways so 
that we can get more out of them. We then seek to use adjacent 
federal lands for such purposes rather than trying to acquire 
out in the private sector. We have made extensive use of 
compatible use buffers where we, in effect, use private lands, 
but we restrict what they can do in payment to the land owners 
so that they will not build houses on them and encroach on what 
we do in our training ranges, but at the same time they can use 
them for agriculture and other purposes.
    Last but not least, one of the major things we consider 
when acquiring lands is the cost-effective nature of that 
acquisition. We do not have restraints and unlimited money to 
buy these things. We budget this every year and must compete 
within the Department of the Army and the Department of Defense 
for other scarce funds, so we are very careful about what we do 
with that money.
    And last, our technology is allowing us in some cases to 
use simulators rather than trying to use actual ranges for some 
of these, but we are very careful in going out and asking 
members of the public to either sell us their land, and 
especially we look at this very carefully when it involves some 
sort of taking. So we want to do that as a last resort. We have 
other management tools that are available to us, and we will 
use those where possible.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you, sir.
    Secretary Penn, good to see you again, sir. You can proceed 
whenever you are ready.

  STATEMENT OF HON. BJ PENN, ASSISTANT SECRETARY OF THE NAVY, 
                 INSTALLATIONS AND ENVIRONMENT

    Secretary Penn. Thank you, sir.
    Chairman Ortiz, Representative Forbes and members of the 
subcommittee, I am pleased to appear before you to highlight 
the land management practices of the Department of the Navy. 
Land is and has always been a finite commodity, a precious 
resource that even for the seagoing service is critical to 
accomplishing our mission. Regardless of whether it is aboard 
ship, submarine or airplane, our citizens and Marines all 
deploy from ashore.
    Land management is complex, but managing it effectively and 
efficiently on a life cycle basis is the Department of the 
Navy's objective. Our land management practices ensure that we 
retain only that which we require for our mission, disposing or 
outleasing underutilized and excess property to return it to 
the public's benefit. This land ownership comes with a price to 
the Department. The cost of owning even unimproved land 
includes additional security; maintaining supporting 
infrastructure, roads, fences, drainage; environmental and 
safety stewardship; and other land management activities.
    We also recognize that land in Federal Government ownership 
removes it from local economic development potential and 
impacts local tax bases. The fact is that land is a valuable 
and finite resource, that it represents a continuous financial 
investment to the Department, and that federal ownership 
distracts from local use and improvements form the basis of the 
Department's longstanding position to only remove from private 
ownership and retain for its exclusive use the minimum 
necessary for the conduct of its military mission. In other 
words, land can be expensive to buy, expensive to maintain, and 
have attributes that could be put to more productive use if it 
were to remain available for public redevelopment, development 
or public use.
    The Department has expanded our physical presence and land 
ownership as our country grew and our mission expanded. Weapons 
capabilities developed, and our strategies, tactics and 
training methods adapted to meet the threats for which we must 
prepare. Similarly, the Department has over time shed 
properties that were no longer required for changing threats 
and missions. The Department currently owns 4.4 million acres 
of land, 2.3 million in the Marine Corps and 2.1 million in the 
Navy.
    The Department takes a life cycle approach to land 
management beginning with the initial planning for changing 
missions and weapons systems, analyzing alternatives for the 
provision of the shore infrastructure, focusing on the minimum 
required. Our Navy property holdings are continually assessed 
through global shore infrastructure plans and regional 
integration plans, which identify gaps potentially requiring 
acquisition and excesses or underutilization of property which 
may trigger disposal or outleasing actions.
    Examples of planning actions involving real estate analysis 
include relocations of the Navy and Marine Corps forces, 
growing a force, fielding of new weapons platforms, and 
development of new training doctrine that require additional 
land or airspace. To meet these requirements we first consider 
utilizing what we already own and analyze alternatives such as 
joint use with our sister services or other federal agencies 
and available excess federal property. We also conduct detailed 
analysis of the true infrastructure requirements resulting in 
acquisition of new land resources only, only, where necessary. 
This analysis is done during our planning stages as well as 
part of our National Environmental Policy Act compliance, or 
NEPA.
    When non-federal land must be acquired, the Department's 
first approach is always to negotiate a fair and agreeable 
price with land owners. Other acquisition methods such as 
condemnation through eminent domain are only used as a last 
resort. Since 2004, the Department has made 93 land 
acquisitions of which only 13 were by condemnation.
    I would like to highlight a true success story for the 
Department, and that is our emphasis over the last few years 
toward preventing negative encroachment on our installations 
through the use of encroachment partnering. We work with our 
partners, usually local government entities or nonprofit 
conservation associations, leveraging limited funding on both 
sides. Their partner will acquire land around our 
installations, and the Department obtains restrictive easements 
on that land, thus limiting development. The partners and local 
communities get conservation and recreation areas, while the 
Navy and Marine Corps installations limit encroachment that 
might otherwise negatively impact current and future training 
operations.
    The Department has signed eight encroachment protection 
agreements with third-party partners incurring easements on 
over 3,400 acres near Navy installations and over 20,000 acres 
adjacent to Marine Corps installations. We expect to continue 
the successful program in fiscal year 2009 and beyond.
    Our ongoing Navy regional integration plans are identifying 
opportunities to consolidate facilities to free up property for 
potential disposal or outleasing. The Navy plans to leverage 
the value of its underutilized property through outleasing and 
is pursuing several enhanced use leasing projects that will 
return land and facilities to public or private use as well as 
bring revenue or services in kind to the Navy.
    Additionally, the Navy is evaluating several areas for 
potential outleasing for the third-party construction of 
renewable energy projects, helping us to meet energy goals by 
leveraging underutilized land. The Marine Corps is also 
pursuing outleasing in energy projects where land is available, 
balancing their needs for property to grow the Marine Corps 
forces.
    The BRAC rounds of 1988, 1991, 1993 and 1995 were a major 
tool in reducing our domestic base structure and generating 
savings. The Department of the Navy has achieved a steady-state 
savings of approximately $2.7 billion per year since fiscal 
year 2002. All that remains is to complete the environmental 
clean-up and property disposal of portions of 16 of the 
original 91 bases, and to complete environmental clean-up on 15 
installations that have been disposed.
    At the end of fiscal year 2008, we disposed of 93 percent 
of the real property slated for closure in the first 4 rounds 
of BRAC. Throughout that time we used a variety of the 
conveyance mechanisms available for federal property disposal, 
including the economic development conveyance. Ninety-one 
percent of the BRAC real property was conveyed at no cost. 
Ninety-one percent of our BRAC real property was conveyed at no 
cost. From the remaining nine percent, the Department of the 
Navy received over $1.1 billion in revenues. Nearly all of this 
revenue has been generated since fiscal year 2003. And fiscal 
year 2006, we completed the sale of 3,719 acres at the former 
Marine Corps Air Station in El Toro, California, for $649.5 
million. We also sold 167 acres at the former naval hospital in 
Oakland, California, for $100.5 million. Beginning in 2003, we 
have used these funds to accelerate environmental clean-up and 
to finance the entire Department of the Navy prior BRAC effort, 
including caretaker costs from fiscal year 2005 through fiscal 
year 2008.
    We have put this money to good use. We have issued findings 
of suitability to transfer for over 10,400 acres, which enable 
us to continue our disposal efforts. A few of the significant 
disposals include the last parcels at Naval Station Charleston, 
South Carolina; Naval Air Station, Key West, Florida; San Pedro 
Housing Area for Naval Shipyard Long Beach and Naval Hospital 
Oakland; as well as the first parcel at Hunters Point Naval 
Shipyard. In addition, significant clean-up activities continue 
at both Hunters Point Naval Shipyard and Alameda Naval Air 
Station, greatly improving the protection to human health and 
the environment.
    For our BRAC 2005 program, the Department of the Navy has 
projected to realize approximately $900 million per year in 
savings from the DOD-wide realignment of closure actions. These 
savings are attributed to the consolidation of missions and 
reduction of care and maintenance costs by closing facilities 
and installations. By the end of fiscal year 2008, we disposed 
of 7,428 acres, which equates to 43 percent of the property 
available for disposal. The disposals were accomplished through 
lease terminations, reversions, and federal and DOD agency 
transfers.
    As communities are finalizing their reuse plans for the 
surplus federal property, and the Department of the Navy is 
completing its national environmental policy studies under the 
disposal actions, conveyance mechanisms have not been 
determined for all the installations. When the redevelopment 
plans are completed, the Department of the Navy will continue 
to work with the local communities to determine the appropriate 
conveyance mechanism to support the land use and the 
redevelopment plan.
    Many factors play into developing a conveyance strategy, 
including environmental mitigation consideration, indemnity and 
liability considerations. Over the past several years we have 
found that EDCs do not spur economic redevelopment faster than 
the traditional conveyance mechanisms available to the 
government. The time frame for completing and of application 
and negotiating conveyance terms can vary from several months 
to several years and are required regardless of whether or not 
the conveyance will be for cost even after the conveyance is 
completed.
    As we complete our efforts to dispose of the BRAC property, 
the Department of the Navy will continue to work with the 
communities to develop conveyances, strategies that result in 
good stewardship of federal taxpayers' assets, and provide for 
economic recovery to the closured communities.
    In conclusion, the Department takes its land management 
responsibilities very seriously, as you have heard. And we work 
closely with our sister services and other federal agencies to 
ensure that our stewardship meets the Department's requirements 
and benefits the nation and our local communities to the 
maximum extent possible. We look forward to working with the 
new administration and Congress to expedite those actions that 
are of the greatest benefit to streamline economically 
beneficial land actions and to ensure the Department is able to 
fulfill its mission with the appropriate supporting 
infrastructure. Thank you, sir.
    Mr. Ortiz. Thank you, Mr. Secretary, for your statement.
    Mr. Billings, whenever you are ready, you can proceed with 
your statement as well.

 STATEMENT OF KEVIN W. BILLINGS, ACTING ASSISTANT SECRETARY OF 
    THE AIR FORCE, INSTALLATIONS, ENVIRONMENT AND LOGISTICS

    Mr. Billings. Thank you, Mr. Chairman, Congressman Forbes, 
distinguished members of the subcommittee. I want to thank you 
for the opportunity to be here. Since this is the first time 
before the committee, I would like to publicly thank Mr. Arny 
and my colleagues from the Army and the Navy, Mr. Eastin and 
Mr. Penn, for their counsel and guidances.
    I have come up to speed in the last six months since Mr. 
Donley asked me to take over Secretary of the Air Force/
Installations and Environment (SAF/IE). When I took over, I 
laid out four basic principles to that organization. The first 
was to comply with the law. The second is to be good stewards 
of the environment. And equally importantly is to be good 
stewards of the taxpayers' dollars. And fourth is to do this 
while remembering that taking care of airmen and their families 
is what allows us to accomplish our mission.
    Additionally, there are three enablers that allow us to 
effectively do our job: transparency, accessibility and 
consistency. And when we use this as a template for decisions 
in basing, these will serve the public well.
    Because our installations are the platform from which we 
project power, the Air Force fights from its bases, real 
property asset management is critical to the mission's success. 
Much of what my colleagues have talked about are things that 
drive what we do in the Air Force in terms of how we dispose of 
land and the use of eminent domain, but I want to touch on a 
couple of things real quickly.
    In 2005, the base realignment and closure round did not 
reduce the Air Force real property footprint. And our 
transformation inside the Air Force seeks to shrink from within 
and deleverage the value of our real property assets in order 
to meet our 20/20 by 2020 goal. This is a goal that we 
developed with the air staff in coordination with the Air Force 
Civil Engineer to achieve by the year 2020 efficiencies to 
offset a 20 percent reduction in funds for installation support 
and reduce by 20 percent the Air Force physical plan at our 
bases.
    And at this point I would like to take a moment here to 
recognize the work of General Del Eulberg and his team. General 
Eulberg has been tremendously supportive of me and 
Installations and Environment (IE) team as we have transitioned 
here. But, more importantly, the civil engineers are one of the 
most stressed career fields in the Air Force, and they continue 
to move forward and help us on a day-to-day basis. Whether it 
is here in the United States, in Balad or Gitmo, the Air Force 
civil engineers do a spectacular job. And I just wanted to take 
the opportunity to talk about that.
    Finally, to be very brief, I would like to real quickly 
talk about the fact that the Air Force is the largest user of 
energy in the Federal Government, and we also have a huge 
amount of land. And one of the things we have done is 
undertaken a greenhouse gas inventory to look at the complete 
use of our Air Force facilities and our weapon systems, but 
also look at our land management, how do we use our land to 
best sequester and use that land to sequester carbon and use it 
in a fashion. So just to be very brief, I would like to again 
thank my colleagues and move on to questions.
    Mr. Ortiz. Thank you very much for your testimony.
    I know that I have a few questions, and my colleagues also 
have some questions to ask from you.
    Secretary Eastin, as I mentioned earlier, maybe you could 
explain the options that the Department is pursuing to reduce 
the almost five million acres required to support training. 
Furthermore, the Texas Army National Guard has proposed to 
acquire additional land at the McMullen training range site, 
and I thought maybe you could explain the steps that the Army 
is pursuing to acquire this real estate interest. And this is 
very important because sometimes it is there, and it is not 
going to be there for long. So maybe you can give us an idea 
how you are pursuing to deal with this land that we are talking 
about.
    Secretary Eastin. As I indicated before, we have a 
shortfall of about 4.5 million acres of training land which 
doctrinally we would require to adequately train our soldiers. 
Obviously we are going to have to work around that. I think it 
is unrealistic to think that we are ever going to close that 
gap on 4.5 million acres. Most of this is left over because 
most of our installations are a legacy of the Second World War, 
if not earlier. Their land around those are somewhat limited, 
in many cases severely limited, while at the same time we have 
that legacy, but we have rapid advance in technology in the way 
we fight and the equipment we use and the electronics and 
airborne equipment we can use.
    So in terms of doctrine, we would require larger numbers of 
acreage around our installations. So if that is not going to be 
possible, and certainly probably not possible in the area of 
cost, certainly even if it was available, we have got to figure 
other ways to do that. And the other ways to do that, as I 
think I indicated in my earlier statement, what we try to do is 
manage the land we have so that we can more intensively train 
on it. We try to get compatible use buffers, a so-called Army 
Compatible Use Buffer (ACUB) Program in the Army, around our 
land so that it does not get further encroached by legitimate 
public uses. And we pay for those ACUBs to the general public 
when they agree to restrict their land.
    Third, we have gone to increased use of simulators so that 
all of the training does not have to be done with wheels or 
tracks on the ground. A lot of that can be done in the 
simulator itself, and it can get fairly realistic. That does 
not change the need for getting out in the dirt and 
communicating with each other in more lengthy distances so that 
we can adequately represent the situation we may find ourselves 
in on the ground in either, for example, Iraq or Afghanistan or 
some other place. We try to realistically train so our 
soldiers, when they get there, are not facing their environment 
there wholly unprepared.
    Can we prepare better on some of these? Yes. We can do it 
more intensely on the land we have. We can do it less 
frequently than we would like to do so that we can get other 
units trained at the same time. But we look at all of the 
alternatives to try to close this, as I said earlier, including 
acquiring other federal lands that might be around our 
installations. And basically we try to buy from willing sellers 
at prices that we hope are affordable by the Army.
    But as I indicated, acquiring land to close this 4.5 
million--oh, that I wish--4.5-million-acre deficit in our 
training, acquiring land is probably the last of the 
alternatives. So are we ever going to get our 4.5 million 
acres? I personally think it is unlikely, but we are going to 
have to work around it.
    Mr. Ortiz. The site that we are talking about, McMullen 
range, do you think that 25,000 acres sounds adequate? Do you 
think maybe it is more acreage than that? Because you probably 
know what we have now. We have a facility, humidity control 
facility, for the Reserves close by. The reasons that we built 
that is to keep the equipment from rusting and having it 
prepared to go to train when they need it. McMullen is close 
by. So I know that the National Guard and the Reserves are 
interested in maybe using some of the equipment, but is 25,000 
acres adequate?
    Secretary Eastin. I will be honest with you, Mr. Chairman, 
I can talk on the acquisition there. I understand that the 
Adjutant General in Texas has indicated that the 25,000 is 
adequate. Once again, if we have other acreage that is 
available there, and it is available from a willing seller and 
at a reasonable cost and can be adequately integrated into that 
unit, training would probably benefit from it. But right now we 
will be programming funds for that 25,000-acre addition. Mr. 
Arny's office has only recently approved this, so we are ready 
to go with it and in short order.
    As to adequacy, I would refer you to the TAG there, and it 
is my understanding that that was enough.
    Mr. Ortiz. Thank you, sir.
    Let me just ask one more question, and I would like for my 
friends to also be given the opportunity to ask questions.
    Secretary Arny, the United States Congress is responding to 
an economic crisis at this precise moment the likes of which we 
have not seen in a very, very long time. Do you expect that the 
current process that conveys land to the public sales to be an 
effective tool when private financing is generally no longer 
available? You probably know there are a lot of people going to 
different financial institutions who have been in business for 
a long time, and they cannot get any financing. What do you 
think about that?
    Mr. Arny. Well, sir, we believe that the economic crisis 
will affect all of the methods of disposal that we use, because 
when you look at the overall numbers, we have only disposed of 
about three percent of the BRAC property by public sale, and 
that was during good times when there was development 
potential. But an economic crisis like we are in now will also 
affect public benefit conveyances, it will affect negotiated 
sales with communities, it will affect--if a community wants to 
develop the property themselves, it will affect them because 
they won't be able to get the financing they need.
    So we encourage the services to use all the tools in the 
toolbox, and as the economic situation changes, we work with 
the community to decide how it is best to develop that. I think 
there will still be a need for housing, there will still be a 
need for economic development, there will still be a need for 
economic development conveyances at a cost and no-cost basis. 
So I think we will see a downturn in some of those conveyances, 
but as the economy turns back, it will go the other way, and we 
will work with the communities on going in either direction.
    Mr. Ortiz. Well, I am glad to see that you are better on 
the border patrol. When they are trying to build a fence, they 
decide that they are going to take that land, and regardless 
whether they want to sell it, give it or whatever, they are 
going to take it over, and that is it, period. I am glad we 
have this attitude that you will do your best to pay them an 
adequate price for what the land is worth. Thank you so much.
    To my good friend Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Once again, I want to 
thank you for your leadership and for holding this hearing. I 
think it is an incredibly important hearing for us to have, as 
so many of the ones that we have before this committee are.
    I also want to thank each and every one of you for your 
service and your willingness to make what I know are very, very 
tough decisions. And we certainly appreciate that.
    We also recognize that any time anybody comes into our 
office, the issue that they are talking about is the absolute 
most important issue to them at that particular time, and 
sometimes we have to keep that balance. And then we have to 
move back on a larger basis and say, how do we balance all of 
the individuals who have those issues coming before us? So I am 
very appreciative of the fact that you have that within each of 
your respective offices as well, and we have that today.
    One of the tough things that we are wrestling with as a 
committee, and I have talked privately to many of the members 
both sides of the aisle, is trying to come to grips with how 
the Department strikes its balance and sets its priorities, 
because oftentimes we don't get that overview. What we get is 
what we get today. We get individual concerns and requests that 
are coming before us that we have to deal with. And it is very 
difficult for us to get our hands around how we are really 
setting our priorities and we are establishing those. And as 
the chairman mentioned, in the economic situation that we are 
in now, that is going to be vital for us to do.
    Let me just give you just a couple of overlays, and I want 
to make some comments, and I want you to feel free to respond 
to them and also just to ask you a couple of questions.
    We look at the Navy, for example, Secretary Penn, and we 
know that we have got an enormous problem with the number of 
ships that we have got in trying to maintain or get to a 313-
ship Navy. Many people think it is very difficult for us to get 
there. We know the overwhelming amount of ship maintenance that 
we have. We know the personnel needs, the aircraft shortages 
that we are going to have. Then we look at situations that the 
Navy just came up with a few weeks ago trying to send a carrier 
to Mayport when we have had testimony here that they never even 
inquired what the percentage of risk was that would send that 
carrier down there. And when they asked the admiral that did 
the dispersal and strategic study, he said it would be very, 
very small, less than 10 percent, but yet we are willing to 
spend $1 billion there.
    And then we have an overlay of the fact that, as the 
chairman mentioned, we have got a lot of economic concerns. And 
regardless of where you are on these bailout packages or 
stimulus packages, the ones that we have now passed, the 
interest alone on those programs would cover the entire budgets 
for the Department of Transportation, National Aeronautics and 
Space Administration (NASA), Homeland Security, the Federal 
Bureau of Investigation (FBI), the Department of Justice, the 
National Science Foundation, the White House, all of 
congressional operations, and every Army Corps of Engineers 
project in the country. That is just the interest.
    And so we know we are wrestling with some very, very 
difficult issues that are out there. When we bring it back to 
the land acquisition part of this, one of the things I would 
like to look at is the OLF situation and our need for an OLF.
    When Admiral Mullen was here or testified before the BRAC 
Commission in 2005, this is what he said: He said, the 
recapitalization in the Future Navy is really at the top of my 
list. And when I compare that versus the risk that we are 
taking in the training and readiness side of this, the balance 
is I come out in the recapitalization piece. And there is risk, 
but--and I think you have heard this term before--we really 
think it is manageable. And it isn't perfect, it isn't ideal. 
It is why the OLF is important to us. But at the same time we 
have been doing this at Oceania for 30 years. The landing 
pattern that you described is one that has been out there a 
long time. And combined with the fact that we have been through 
a number of wars, we have been very successful in that regard, 
all of us would like to be perfect; it isn't, I don't think, it 
clearly isn't now. But within the constraints, the overall 
constraints, on the readiness and training side that faces us 
all and the risk associated with that, I accept that risk at 
this point, and the training challenge is manageable.
    That was Admiral Mullen's statement when he was Chief of 
Naval Operations (CNO).
    We also had testimony from Phil Granfield, who is a retired 
Navy captain, that when you looked at all the statistics about 
where everybody was trained, he said this: He said, my 
conclusion after studying those conditions and restrictions of 
the widely varied Field Carrier Landing Practice (FCLP) 
facilities at each base and each OLF was that the FCLP facility 
was not a factor. He goes on to say, there is no statistical 
difference between the capabilities of the pilots when they get 
to the ship based on where they were trained.
    So the first question, sir, is a question I have for anyone 
who wants to answer that, is based on Admiral Mullen's 
statement then, has the Navy recapitalization picture gotten 
better since 2005, or is it now more difficult since 2005? I 
would suggest it is probably more challenging now than it was 
in 2005.
    Has the federal budget scenario gotten better or worse 
since 2005? I would suggest it is tougher now.
    Has the pace of China's naval expansion accelerated or 
slowed down since 2005, before the Navy even admitted that 
China was building an aircraft carrier?
    And this is what Secretary Eastin mentioned: Has simulation 
technology not improved since 2005?
    All of that addresses perhaps that balance we have between 
OLF acquisitions and maybe some of the other needs that we 
have.
    And then let me just throw these questions out for you 
because I want other people to get their questions in. One of 
the toughest things that we have had is, when you are trying to 
make acquisitions in communities, having the acquisition 
process include the localities at the outset of the process. 
Oftentimes they feel like they are blind-sided when this takes 
place, and once they do the political part of it, it is 
incredibly difficult for them, because they hear an 
announcement come out that we are going to acquire this land. 
You have got mayors, you have got members of city councils or 
board of supervisors that are all of a sudden on a spot just 
getting bombarded, and once that train has left the station, 
there is no putting it back in again.
    And so one of the questions I would have for you is are 
there any legal changes that we need to make so that you can 
allow localities to be a part of the process for the land 
acquisition sooner rather than later? How do we change that 
process around so that they aren't left out in the cold, and 
they can be actual partners, instead of having something forced 
down on them at a later date? And I throw that open to anybody 
who can help me with that.
    Secretary Penn. I think I got most of your question, sir, 
but I would like to start with the last one first, and that is 
allowing localities to get in on the process early on. We have 
found through the OLF process and a couple other projects that 
we are working that that is absolutely essential, and if we 
don't do that, we have the same problem. It is the same 
problem.
    One of the problems we have had, and we have discussed it 
just this morning, is that unfortunately in the military, 
people will make decisions, and in a year or two later, they 
are gone, they rotate out. So we need some way to carry this 
over from day one where one person has the control, and they 
run the process through its completion if that is possible.
    Mr. Forbes. Let me just ask to you elaborate on that if I 
can. How does that impact whether our communities are involved 
at the outset or not involved? I understand how we could have 
changing decisions.
    Secretary Penn. I think Admiral Anderson in Norfolk is 
doing a phenomenal job with that.
    Mr. Forbes. I agree with that.
    Secretary Penn. And he wasn't there at the beginning of the 
process. So, as you mentioned, he is trying to put the horse 
back into the barn. But I think if we had someone like Admiral 
Anderson there at the very beginning going out and talking to 
the communities, we wouldn't be experiencing what we are today. 
And it has been my experience that if you are fair and open 
with people, they will be the same with you. And if you tell 
them this is what we want to do, why we want to do it, how it 
is going to occur, and the way we are going to try to make it 
happen, it usually works.
    I know I have talked personally with some of the folks from 
North Carolina, and we had a very good conversation. It was 
very open, very clear, and we both walked away understanding 
what the process was.
    Mr. Forbes. Mr. Secretary, again, I don't want to interrupt 
you. I just want to take a limited amount of time because I 
want to defer to other members, but I want to be specific on 
this. Is it your suggestion that the problem with an OLF in 
Washington County, for example, was that you had the wrong 
personnel dealing with that process at the outset as opposed to 
not having the right process to be able to engage the people in 
Washington County?
    Secretary Penn. I don't know the personnel that were 
involved, sir, but I think the process could have been opened. 
It should have been an open process, and we quite often do not 
do that because we are in negotiation, and it is business 
sensitive.
    Mr. Forbes. Well, one last thing I will just say on this, 
and then I will yield back my time. But when the Navy was 
looking at an OLF in Washington County, North Carolina, I am 
not suggesting it should have been there or shouldn't have been 
there, different opinions on here, but it is my understanding 
that the Navy set forth to have the OLF there, and then the 
reason it ultimately pulled off is because of the political 
pressure that came on them to do that. Is that a fair 
statement?
    Secretary Penn. Yes, sir, that is correct.
    Mr. Forbes. How, then, do you go to other communities, be 
they in North Carolina or in Virginia, and look the leadership 
of those communities square in the eye and say, our number one 
priority, the OLF that we felt was in the best interest of the 
national security of the United States was in Washington 
County, or wherever it was, but we threw in the towel, and we 
are coming back to your community now because they threw up 
political pressure, and we weren't prepared to fight that 
political pressure? The unfairness of that to those communities 
is almost impossible to overcome because they will stand up 
then and say, look, if the Navy had sat back and said we are 
the number one site, this is where it should be, that is one 
thing; but to then say that because people had political 
pressure there, you are going to come and impose this on our 
community, then what you are sending out a message to all those 
communities to do is, first of all, one, we are not going 
include you in the process up front, but second, the 
communities that get rewarded are the ones that fight against 
it the most and stand up politically against it. And I don't 
know how you look them in the eye and say it is a fair process, 
but maybe you can tell me what you are telling them, because 
they are not coming back to me with a great deal of comfort 
level in that.
    Mr. Arny. Congressman, we have discussed this before, I 
know, and I have been away from it for a little while, but 
during that process we learned a lot. Part of the problem that 
Mr. Penn referred to is the fact that most naval officers--and 
having been one myself, and both my kids have used Fentress, we 
all understood that the need, absolute need, for an OLF, well, 
what most naval officers don't deal with is land acquisition. 
So when the fleet decided they need it, it was really kind of 
in the hands of most of the people who weren't doing a lot of 
real estate acquisition.
    So we learned the lessons as we go along. Washington--at 
the time the criteria was a base halfway between Cherry Point 
and Oceana, and Washington County looked like it was the best. 
We actually did procure land there, and we were going through 
the NEPA process. If you recall, we got sued a couple of times, 
and it was clear in the end that we would have won that 
lawsuit, okay. We would have won the lawsuit, we would have 
satisfied the NEPA requirements, but Congress would not fund 
for the rest of the procurement. So we fell back, went to the 
Secretary. Things had changed, and we decided, okay, the 
primary area we want to protect is the OLF is really necessary 
for Oceana.
    The thing that we did differently, we learned, is we went 
to the governors of both states, the folks in Norfolk did, and 
said, where is the best place that you would put an OLF? So we 
worked with the representatives at the state level for those 
communities. What we didn't know at the time is that the 
governors had not talked to the local folks, so that we were 
again blind-sided when we made the announcement, with the state 
governors basically standing at our sides. The local 
communities had not been consulted, and we had not asked the 
question if they had been consulted ahead of time.
    Mr. Forbes. My time is up. I just want to say that the not 
funding part of it is the political part of it that I am 
saying. And once you have crossed that area, you send a message 
to every locality across the country, this isn't about 
patriotism, it isn't about the national interest of the 
country, it is about the political pressure you can bring to 
bear to stop it in your community, which I think is difficult.
    The final thing is allowing, whether it is the governor's 
office or whoever it is, to totally exclude the congressional 
delegation, state legislators and the locality is a fatal 
mistake that I don't know how you remedy after that. So I would 
just suggest that we come up with some process that guarantees 
that doesn't happen down the road, because I don't know how you 
put those horses back in the barn once they have gotten out.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Kissell.
    Mr. Kissell. Thank you, gentlemen, for coming today.
    I think my question is somewhat open-ended. The 4.5 million 
acres of land that we need for the Army, I sense that you are 
saying we are not going to get it. At what point in time is 
that unrealistic and you say we're not going to get it and you 
reduce that number? And how seriously does that affect our 
ability to train and be ready if you don't get that land?
    The last part of that is I just have a curiosity about this 
4.5 million acres. Is that spread out across all of our bases 
throughout the land? In the perfect world would you have 1 
million or 2 million acres of that in one place? Is it parcels 
here and there, or are you looking for one bigger area?
    So I guess I have two questions. Number one is what happens 
when we realize we are not going to get it and how does that 
affect our readiness? And number two, how is this land composed 
that we are looking for? Is it small areas, big areas?
    Secretary Eastin. Congressman, let me answer your last 
question first. The 4.5 million acres is a compendium of each 
installation and what its current mission requires. If you have 
four brigade combat teams at, say, Fort Benning, you are going 
to need more acreage there to operate them in accordance with 
our doctrine. If you have two, you are going to have less. If 
you are going to some other operation, perhaps their mission is 
such that you won't require any acreage. But the 4.5 is 
systemwide domestically for the Army. It doesn't include 
continental United States (CONUS) operations.
    Once again, I have responded to this question before, it is 
a little like playing golf and practicing on--I notice you are 
smiling, I am a real bad guy to ask about effectively training 
on a golf course--but you go out and practice on three holes 
and then you go over to Afghanistan and you have 18 holes in 
front of you and you are trying to extrapolate the training you 
had back in the States to the entire field of battle. So can 
you do it? Are you going to get some value? Did the training on 
the smaller range help? Yes, you are. Are there ways to work 
around it? Yes. Can you do this full boat forever? Difficult, 
but it can be done. It gets down to the quality of the training 
and whether it is as much as we would like.
    So are we sending untrained soldiers? No. When they land 
boots on the ground over there, they are ready to go. Would we 
like them to have had a wider range of training opportunities? 
Yes. But there are some things that we would like that can't be 
done. And 4.5 million acres is a heck of a lot of acres.
    Parenthetically, answering Congressman Forbes' earlier 
question about involvement of the public, if you do not get the 
public involved early on in your land acquisition, the public 
is going to involve itself in that acquisition, and they are 
going to come up with all sorts of ideas on what you plan to do 
out there. The rumor mill is alive and well, and we faced it 
out in Colorado with an attempted acquisition we have at Pinon 
Canyon. It was rumored we were coming out there, and before 
long the opposition people and the locals had us acquiring 7 
million acres, which would have effectively taken southeast 
Colorado clear over to the Oklahoma border and been twice as 
much as we needed in our range deficit.
    They will create in their minds scenarios for you that you 
are going to have a heck of a time getting around from a 
community perspective if you don't get in and get involvement 
with them very, very early on.
    Mr. Kissell. Just one more follow-up question. If 4.5--and 
I am still sensing that you don't think that is realistic, 
although that is what we need--how much do you think is 
realistic on a reasonable time frame? And yes, it does affect 
our readiness, and I guess that is where I am trying to get 
balance to my mind. How much does practicing on 3 holes versus 
18--and practicing never helped my game much at all, that is 
why I was smiling. Where does it effect our readiness and how 
much of that 4.5 million is realistic, where we start using a 
different number other than 4.5 million if that is not in fact 
realistic?
    Secretary Eastin. The 4.5 million acres arose by taking our 
current doctrine and how many acres per brigade combat team, be 
it a heavy brigade or an infantry brigade, or in some cases a 
Stryker brigade. They all require different areas to train on. 
When you collect them all together, you are going to get an 
area that is probably larger than the one that you currently 
have.
    You feed this data into our strategic system and it comes 
back with 4.5 million. Is that a reasonable number? We take 
that number, and the local commanders and, in fact, our G3 sits 
down to see if this is realistic or not. I am not going to tell 
you 4.5 is absolutely what we need, or 3 million is what we 
need, or even more, but it needs to be tempered by some human 
aspect of this. And that human aspect encompasses what is 
available, what is likely, what is cost effective and which 
land, if you will, land deficits can be worked around in some 
other way such as the ones I have enumerated.
    Mr. Kissell. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Ortiz. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    First of all, I appreciate the low-key approach of eminent 
domain. There have been abuses of that power by local 
governments, and using that as a last resort is the right way 
to do that.
    With regards to turning bases back over, we had an 
ammunition plant in my district, the fourth district of 
Louisiana, an Army ammunition plant, that was turned back over 
and has become really a tremendous site of enterprise. We have 
17 companies involved, we have the Youth Challenge Program, the 
National Guard, and so it is turning out to be a great success.
    Let me turn to Fort Polk which is in my district, a very 
important Army base during these times. I want to commend 
Secretary Eastin in bringing forward the barracks modernization 
and also upgrade initiative at Fort Polk. I feel with the 
sacrifices our active duty are having to make, particularly 
those going overseas and on the front lines, that there is 
nothing that is too much to do for our active duty and their 
families. So I thank you, sir, for that.
    Also I want to mention that I have had briefings from 
General Yarborough and also Colonel Sage with regard to some 
land acquisition issues that are going on at Fort Polk today. 
And they are taking a very low-key approach and trying to work 
with the community. I think that is very important.
    But there are some tremendous needs. Specifically, 
Secretary Eastin, I understand that last year Fort Polk was the 
Army's number one land acquisition priority. Is that still the 
case, and where are we with that land acquisition?
    Secretary Eastin. It is one of our priorities, and it is 
very high up. Another one is Pinon Canyon, as I have discussed.
    We have recently approved through Office of the Secretary 
of Defense (OSD), last summer I believe it was, the right to go 
ahead and look at the feasibility of acquiring 100,000 acres to 
add to the estate at Fort Polk. I think this is going to 
significantly increase the training capabilities at the Joint 
Readiness Training Center there. It is a very important 
training center for the Army, and we believe that there is 
adequate land within that 100,000 acres around Fort Polk that 
is available from willing sellers, and we plan to proceed on 
that and we are investigating it accordingly.
    Also, I believe we are working with the communities there 
so that we have some outreach as to what it is we are doing and 
who we are planning to buy from, and to assuage their fears 
that we are going to come in and swoop down and take the town. 
We are not going to do that. We think that we have located 
willing sellers, and we are proceeding with that.
    Dr. Fleming. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Ortiz. Mr. Abercrombie from Hawaii.
    Mr. Abercrombie. Thank you.
    Secretary Penn, Secretary Arny, in your previous service 
you were in the equivalent position, although our report says 
that you were with installations and facilities, and the title 
I have for Secretary Penn is Facilities and Environment. I 
presume they were one and the same or similar?
    Mr. Arny. I worked for Mr. Penn.
    Mr. Abercrombie. The Japanese government and the United 
States government has recently signed the latest in a series of 
agreements with respect to the removal of Marines from Okinawa 
to Guam and probably Hawaii and possibly the west coast, 
especially as this proceeds into the future. Your biography 
says that you are responsible for formulating policies, plans 
and procedures with respect to that agreement. My understanding 
is that at least the proposal as embodied in this agreement has 
to do with the Japanese Diet providing funds between 3 and $4 
billion for family housing and other housing and facilities in 
Guam; that is to say, a loan.
    Now I want to put you on notice that I will not be the only 
member of this committee, subcommittee or the full committee, 
which will be in opposition to that. There is no way on earth, 
given the recession that we have right now, let alone any of 
the other instances of difficulty that have already been cited 
in other instances here today, that you are going to do that.
    You are not going to take--you are not going to take the 
basic allowance for housing and pay Japanese construction 
companies with that basic allowance for housing to allow 
Japanese construction companies to bring in foreign nationals 
to Guam or any other place, pay them whatever wage slavery sums 
that they put together, and then have them set the standards, 
have the Japanese Diet approve or disapprove what the terms and 
conditions of that loan are going to be, cut out the Congress 
of the United States, and then have them turn it over for 
maintenance and for management to the United States Government, 
which means this committee and the appropriations committee 
will have to make up all of the funds for the management and 
the maintenance of facilities that have been built by foreign 
nationals and Japanese companies that will be paid by the 
United States.
    That is not going to happen. Believe me. Hear me, Jesus, it 
is not going to happen. So we need to get that straight right 
away, okay?
    Secretary Penn. Yes, sir; got it.
    Mr. Abercrombie. Have I misstated or incorrectly summarized 
the agreement at least in its rough outlines?
    Secretary Penn. I think it is very clear.
    Mr. Abercrombie. I know I am clear, but that is what the 
agreement essentially says; is that right, Mr. Arny?
    Mr. Arny. I have to go back through it, but I don't believe 
it is a loan completely.
    Mr. Abercrombie. No, that is only one part of it. There is 
another $2.8 billion that the Japanese government proposes to 
put up as part of its payoff to its own people to get the 
Marines out.
    Mr. Arny. I do know that all U.S. hiring rules will apply 
on Guam.
    Mr. Abercrombie. Yes, that means all of the visas that we 
can't even get to come into the mainland of the United States, 
and you think that you are going to get permission to have 
those visas when we have double-digit unemployment. I have 15 
percent unemployment on the island of Molokai right now, and I 
understand that there is a $42 billion deficit in the state of 
California, and you don't think you can find operating 
engineers, ironworkers in the United States right now, and in 
Guam, to take up the workload?
    Mr. Arny. Yes, sir, I believe we can. That is my point.
    Mr. Abercrombie. So this agreement, I don't know how the 
State Department thinks that it is going to affect it, but they 
can sign agreements until they are blue in the face, the 
Congress of the United States is still going to decide this.
    Mr. Arny. Absolutely.
    Mr. Abercrombie. Now, I am grateful to the Japanese 
government, believe me, in terms of what they have provided, 
but this is a Japanese and American defense treaty. They are 
solving a political problem with this. They are not doing this 
out of a charitable impulse.
    Mr. Arny. Also, as to the standards, the construction 
standards, we intend those standards to be our standards, not 
Japanese standards for housing.
    Mr. Abercrombie. You may intend that, but the agreement as 
I read it says that the Japanese Diet gets to decide the terms 
and conditions. You can shake your head, but as I read the 
agreement, there is nothing for the Congress of the United 
States to decide. When the State Department decided it could 
compel the Congress of the United States to do things is beyond 
me. I don't know quite how that works.
    The agreement, as I read it, says that the Japanese Diet 
has to approve terms and conditions under which the money would 
be loaned, let alone the money that they intend to give. I 
don't blame them for that. That seems to me to be a prudent 
action. But the Congress of the United States ought to have at 
least the same privilege. It is going to cause you a lot of 
problems you have to get settled right now, because the 
intention is to move the Marines fairly soon, and the 
infrastructure in Guam is nowhere, by any stretch of the 
imagination, even remotely prepared to deal with that right 
now. I am talking about the sewers, the roads, the harbor which 
was BRACed into oblivion--another big mistake that we made. 
That is one of the reasons why you are asking the Japanese 
Government to provide $2.8 billion for construction and 
facilities.
    Mr. Arny. I worked for Guam when that BRAC decision took 
place, and the only part that was BRACed was the shipyard, not 
the port.
    Mr. Abercrombie. I know, and the shipyard is in terrible 
shape. It is going to have to be refurbished, at a minimum.
    Mr. Arny. Not for the commercial side.
    Mr. Abercrombie. We can discuss that further. In any event, 
the facilities and the infrastructure in Guam is unprepared at 
the moment.
    Let me ask you, Secretary Penn, what provisions are going 
to be made for the 10- to 12- to 15,000 workers that are going 
to come into Guam to build these facilities? What is prepared 
right now?
    Secretary Penn. Our plan is to have the contractor provide 
the quarters and facilities for them. And once the construction 
is complete, we would like those facilities to become either 
housing for the university or affordable housing for the people 
on Guam.
    Mr. Abercrombie. Where is it going to be?
    Secretary Penn. NEPA has not been completed. The 
environmental studies have not been completed. We don't know 
exactly where it is going to be.
    Mr. Abercrombie. And you are going to be able to compel the 
Japanese contractor to do that?
    Secretary Penn. That is our hope.
    Mr. Arny. I believe we are, sir. If we don't, it doesn't 
work.
    Secretary Penn. We have what we call a SPE, special purpose 
entity, which is going through all of the infrastructure. We 
would like to give you and anyone else on the committee a 
briefing on that, just so you know where we stand.
    Mr. Abercrombie. I have been on it right straight through.
    Mr. Ortiz. Let me tell my good friend, within the next 
couple of weeks, this committee is going to focus on Guam and 
we might be able to get more direct testimony, because that is 
going to be our focus. Sometimes we feel that the Department of 
Defense and the State Department have not been singing from the 
same page in many instances. And, in fact, we had somebody say 
the other day that the Army had more marching band members in 
their band than the State Department had employees in their 
staff. So I think that we are going to focus on that soon so 
that we can really get the core. My good friend has very 
legitimate questions to ask.
    Mr. Abercrombie. As you know, Secretary Penn, and Secretary 
Arny, I exist only to make your life easier.
    Mr. Arny. We have many instances where you have helped us a 
lot, sir.
    Mr. Abercrombie. Mr. Eastin is my witness on that.
    Mr. Ortiz. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary Eastin, I would like to ask you about a proposed 
Army expansion in southern Colorado that was briefly mentioned 
earlier, Pinon Canyon.
    Every private property rights advocate would agree that a 
landowner must be protected from unreasonable takings of their 
land against their will, as well as takings that do not provide 
just compensation.
    But the other side of the coin is that private property 
rights must also mean that landowners should be free to sell or 
lease their land to whomever they wish, including the United 
States military.
    From what I understand, some of the opponents of the Army's 
land expansion at Pinon Canyon are not only opposed to 
condemnation of unwilling sellers, but they are also opposed to 
willing sellers who voluntarily wish to sell or lease their 
land to the Army. Is that your understanding as well?
    Secretary Eastin. I have seen reports of that, and I think 
a press release from what we call the opposition group down 
there indicates that. They don't mind selling your land to 
whomever you like, as long as the Army isn't to whomever you 
like. I am at a little bit of a loss to understand that. We 
have worked very hard in the Pinon Canyon acquisition where we 
are seeking to acquire a little less than 100,000 acres down 
there. We have bent over backwards to address every issue that 
the community has raised and the opposition has raised, and 
still we run into that.
    It is as if--and I don't want to point fingers down there--
but they somehow have a deep mistrust for the Army and they are 
afraid if we acquire the 100,000 acres we will be back next 
year for 100 more, or, as I indicated before, 7 million. They 
have a campaign that I am not sure where it is heading, but I 
believe that we, the Army, have addressed all of their concerns 
and we would like to proceed with this.
    Mr. Lamborn. Just for the record, will the Army agree to 
buy or lease land at Pinon Canyon only from willing sellers, 
and not use property condemnation upon unwilling landowners?
    Secretary Eastin. I have said that the Army will purchase 
land from willing sellers. Let me be clear about this: The Army 
will not take land for Pinon Canyon and will not condemn land 
at Pinon Canyon. It will buy only from willing sellers. I don't 
know if we can get any clearer than that.
    I have had the pleasure of having a meeting in Trinidad, 
Colorado with local concerned citizens. I stated that at that 
time. That is the Army position that I stated. We do not need 
to buy from unwilling sellers. The only time condemnation will 
be used is if someone requests it for clearing title or, as I 
understand it, tax purposes.
    Mr. Lamborn. Thank you.
    If the Army gets permission and funding from Congress to 
expand Pinon Canyon, what benefits would the immediately 
surrounding communities receive?
    Secretary Eastin. The proposal we have made--we have been 
talking to several landowners there--the proposal we have made 
to the community, once again in public statements and in 
writing to the local community there, with the additional land 
we will construct a combined arms training center which will 
require, and we have program for it, between 125 and $140 
million in military construction on that Pinon Canyon.
    Additionally, we will need people to operate that range. We 
have committed that we will hire upwards of 100 additional 
people that will live in the area, in the community, not on our 
installation but in the community. They will buy or lease 
houses there. They will have their cars repaired there. And 
they will up the volume at the local McDonald's and food 
stores, and live and contribute to the community. Our estimates 
are for Los Alamos County, and for others that don't know, it 
is a relatively agrarian community with less going on 
economically than larger cities, but we anticipate that our 
contribution there would be about $9 million a year in salaries 
alone, which would be between 5 and 6 percent increase to the, 
if you will, gross national product of the county. So it is 
going to be a significant addition to the county.
    I think it will help the Army meld into the community 
rather than, as some of the community members now think, we 
drive down from Carson City, tear up the land with our tanks, 
buy a few Cokes at the 7-Eleven, and go back up north. We don't 
want to do that anymore, and we intend to correct that.
    Mr. Lamborn. I appreciate your answer.
    Mr. Ortiz. Mr. Reyes.
    Mr. Reyes. Thank you, gentlemen, for being here and for 
your service.
    My question is to Secretary Eastin. We have obviously had 
an opportunity to visit many times on the growth that is taking 
place in my district, in particular with Fort Bliss, and I 
appreciate your support for all of that effort. But given the 
subject of today's hearing, I wanted to ask you about a portion 
of Fort Bliss that is actually not included in the future 
growth of the post, but it is an area that garners a tremendous 
amount of interest, and I am talking about Castner range which 
is, as you know, Secretary Eastin, is an old artillery range 
and it is located right up against the Franklin Mountains and 
has not been used by the Army for anything since the 1970s. 
Since that time, Castner range has gone from a very active 
artillery training site to what people in my district highly 
value; it is an open space that every spring there is now a 
tradition where we can go out there and see a spectacular 
display of desert poppies.
    The concern in my district is that the Army is going to at 
some point reactivate Castner range and will be reutilizing it 
again, and they would like to keep it as open space. So my 
question to you is: Can you tell us whether or not the Army has 
any plans to reopen Castner range or maybe to develop the range 
for any other purpose?
    Secretary Eastin. We ceased operations on that range in 
1971. Meanwhile, some 35-38 years later, El Paso has grown up 
around us. It would be wholly impractical to use that parcel 
for any range activity. We don't have any other intended uses 
for it. It is now bisected by a highway and just plain 
impractical for that sort of use. So I think you can assure 
your constituents that we are not going to be back there in an 
active way anytime soon.
    Mr. Reyes. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Ortiz. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Penn and Mr. Arny, the chairman and I and some others 
just got back from Guam. While I don't lay claim to the veto 
authority and power that my good friend from Hawaii does, I am 
pretty concerned about that process. The folks we visited with 
weren't there when the original decision was made. As best we 
can tell, the idea of moving 8,000 Marines off Okinawa to Guam 
occurred as a result of a contentious meeting between Secretary 
Rumsfeld and, I guess, the then-Governor of Okinawa. And so 
part of our concern is we are going to be asked to fund a good 
slug of this stuff, and just understanding the backdrop of how 
that decision came about and how we picked the number 8,000 and 
what the thinking was among the administration that came up 
with this idea to move the Marines. Were either of you involved 
in any of those early decisions as to how this happened? You 
were just handed a statement that said move 8,000 Marines from 
here to there.
    Secretary Penn. We were just told to do it.
    Mr. Conaway. We will continue to try to figure that out. I 
don't know how our understanding will change the ultimate 
outcome, but it will make it easier. Who would be the person to 
ask who has the institutional memory or wisdom on this idea?
    Mr. Arny. I believe the chairman has a hearing scheduled in 
two weeks which will go into Guam. I am supposed to be there. 
Also, my colleagues from the policy section at DOD will be 
there, and we will get into that history.
    Mr. Conaway. So during that hearing, we will have someone 
there who has the institutional memory of how we got from 
Tinker to Evers to Chance and where we are today, so that those 
of us who will be asked to vote on whether the U.S. pays for 
any of this, we can do so on a more informed basis?
    Mr. Arny. That is correct.
    Mr. Conaway. I appreciate that. I yield back the balance of 
my time.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Secretary Arny, at the beginning of the month I wrote 
Secretary Gates a letter. I hope you are familiar with it. It 
involves the transaction that took place in my congressional 
district, the Armed Forces Retirement Home. We are fortunate 
enough to have one of the two, purchased about 10 acres of 
property for about $5.7 million. They turned around and sold 
the two houses on the property, two very nice houses, and about 
3.8 acres of land, apparently, for $1 million. This doesn't 
appear to be a very good business transaction for our nation. 
Apparently the houses were not put out for public sale. It was 
done I think in a questionable manner. I have a letter for you 
that has a number of questions that I would very much 
appreciate you getting me some answers to.
    But more importantly, I would like to know what steps, if 
any, have been taken to keep something like this from happening 
again. Again, it appears shady at best and certainly a very, 
very bad business judgment on the part of the nation. And there 
is a limited pool of money to run that Armed Forces Retirement 
Home, and I don't think it was money well spent.
    I would appreciate you getting back to me on these things, 
I would hope in two weeks. And above all, if some regulations 
have not been passed since this transaction to keep something 
like this from happening again, I need to know that, because I 
would certainly like to address it in this year's authorization 
bill so that kind of mistake isn't made again.
    Mr. Arny. Yes, sir. I heard about this yesterday. The Armed 
Forces Retirement Home, what little management DOD has over it, 
comes under the personnel section. We know there is an answer 
coming back to you. In researching it, the land acquisition was 
done by the home. It is not overseen by my office, and the lot 
had changed that.
    I am as troubled as you when I read the articles. There is 
a lot that I don't know. I worked with the Armed Forces 
Retirement Home back in the 1980s, but I am told the entire 
structure has changed since then, and very little of the 
management comes under the DOD. I will research that. I will 
make sure that my Personnel and Readiness colleagues get back 
to you. I know we do have an answer to your letter coming 
through the system to you.
    Mr. Taylor. Mr. Chairman, with your permission, I will 
submit this letter and the questions for the record.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Taylor. Again, I don't mean to catch you cold on this. 
It was not on your watch. The most important thing is that 
those bad management practices be changed so that it doesn't 
happen again.
    Mr. Arny. I agree, if that is the case, they need to be 
changed, but I believe we do not have any oversight over those 
management practices.
    Mr. Taylor. Someone needs some oversight.
    Mr. Arny. Yes, sir.
    Mr. Taylor. Thank you very much.
    Mr. Ortiz. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Once again, I had three committees holding hearings at the 
same time. We need some good time management practices in 
Congress. It is almost as bad as the military right now. I do 
have one thing that I would like to ask, and I will end my 
sentence with a question mark. So, Mr. Eastin, if you would 
like to respond you can, but it is half statement and half 
sentence.
    I recognize that in your written testimony you talked about 
the need of having 4.5 million acres for training purposes, and 
I recognize some of the problems that you are facing. I also 
have to admit you have a large responsibility of covering 
dozens of bases and installations that the Army desperately 
needs. But I do find it unusual, that is the best word that I 
can say, that you have facilities that I think are still 
underutilized by the Army.
    One of the things I am the proudest of in my district is 
the Utah Test and Training Range and the Dugway facility. That 
is a huge area out there, which we have taken great strides in 
both the state and the congressional delegation, to make sure 
that there are no encroachment issues. You would not be sued by 
private property owners in the Dugway training area, and you 
have a whole lot of land there that simply is underutilized. 
And I recognize, Mr. Billings, a lot of the work we have done 
is to make sure that the Air Force can still utilize that 
space.
    Sometimes I get the feeling that the Army simply has 
blinders on and you fail to look outside the box. We would love 
to work with you to fill some of your needs, but I don't think 
that you are looking at the right area to find those needs. 
This is a wonderful space to solve some of your problems, and I 
would specifically like the Army to look at that vast area of 
land with no encroachment issues in an area where the state 
totally supports those types of endeavors.
    It is frustrating to me that we still have bio level 3 labs 
out there in trailers on the desert. I am frustrated also that 
there has not been a Military Construction (MILCON) for the 
Tooele Army Depot in 16 years, even though more ammunition is 
shipped out of that spot than any other facility that you have, 
and it is all going from World War II loading docks. In fact, 
we have buildings out there that we don't have a MILCON to tear 
down. I don't know necessarily what happens.
    What I am trying to say is, Mr. Eastin, I recognize the 
serious issue that you have. I would like to help you solve 
that problem, but I feel frustrated because time after time we 
seem to run up into a stone wall when we say we have solutions 
that can help you address some of the issues which you have. I 
would like you to look more seriously at some of those issues. 
This is a place that can be one of the solutions you have, once 
again in an area without encroachment and an area with popular 
support for this use out there. I would seriously like you to 
reexamine that opportunity and reexamine the potential that is 
out there. That is a question.
    Secretary Eastin. Thank you, Congressman.
    Mr. Bishop. Mr. Forbes said, ``Will you do that?''
    Secretary Eastin. Question mark. Let me look at this stone 
wall and get back to you for the record on why it is that 
apparently you have surplus land and this cannot contribute to 
our training ability. I am not prepared now to speculate on why 
that is. We will get back and you shouldn't be left unsatisfied 
as to our reasons for not looking at that.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Bishop. I appreciate that. I realize that I am asking a 
parochial issue, and you have nationwide issues to deal with.
    Secretary Eastin. I have never seen a parochial issue 
before, Congressman.
    Mr. Bishop. We are all parochial issues, but at the same 
time I really think we have the opportunity for providing some 
solutions, and I would appreciate that kind of interest. I 
thank you. That is what I think is the best response I can ask 
for at this stage.
    Mr. Ortiz. After consultation with the minority, I now ask 
unanimous consent that Mr. Butterfield, a member of the House 
of Representatives, be authorized to question the panel members 
at today's hearing. If there are no objections, I recognize Mr. 
Butterfield.
    Mr. Forbes. Mr. Chairman, we are happy to have our 
distinguished colleague from North Carolina to ask any 
questions he may have.
    Mr. Ortiz. Mr. Butterfield.
    Mr. Butterfield. Thank you, Mr. Chairman, for letting me 
come to this committee to say hello to our guests, and to thank 
the minority for your unanimous consent in letting me do this. 
I served on this committee some years ago and it is good to be 
back in this room one more time.
    Before I forget, let me ask unanimous consent to include a 
three-page opening statement for the record.
    Mr. Ortiz. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 60.]
    Mr. Butterfield. Thank you.
    Mr. Chairman and colleagues, for nearly eight years there 
has been a very contentious debate in my state over where best 
to site an outlying landing field to support the operations of 
a carrier-based fixed wing aircraft squadron from Oceana, which 
is in Virginia Beach, Virginia. Since my first day in this 
body, even when I was campaigning to get a seat in this body, I 
have been confronted with this issue and I have said all along 
that I have supported the Navy's desire to build the OLF 
provided it was in a place that provided a proper fit for both 
the Navy and our local community.
    Understandably, this has proven to be an emotional issue 
for the people of my district regarding potential sites. The 
concerns of these communities--most of these are rural 
communities--these concerns center on the prospect of a 
diminished quality of life, greatly increased noise, and the 
potential for accidents and environmental impacts and concerns 
over the vast amounts of private acreage becoming public lands 
and going off the local tax rolls.
    Secretary Penn and I have talked about this repeatedly over 
the years, and so I want to address this to Secretary Arny, if 
I can. My question to you, sir, is regardless of the final site 
selection of the OLF, regardless of where it is--and you and I 
have talked about this as well--how does the Navy intend to 
offset some of the concerns of the local community relating to 
their quality of life?
    Mr. Arny. I have been away from that issue for over a year. 
But I do know that the fleet--Admiral Anderson has referred to 
him as Hollywood--has worked very closely with the communities 
down there. I know that the Navy has also worked very closely 
with the governor and his staff to find the proper place to go. 
And I know at the time that the governor's staff was also 
working with local communities.
    As far as offsetting the impact of the facility, I know 
that the Navy was looking at there will be jobs created at the 
field; not a lot, but there will be jobs. The Navy is also 
looking at some sort of tax benefits. We are looking at land 
that willing sellers would like to dispose of or would like to 
sell. There are a number of things.
    Mr. Butterfield. What about direct investments? That is 
what citizens ask me about.
    Mr. Arny. There will be direct investment. We will build 
runways and firehouses and roads. Again, my date is a little 
old. I haven't had a chance to refresh on that issue, so I 
defer to Mr. Penn.
    Secretary Penn. Current numbers, we will be employing about 
60 people. The initial construction will be upwards of $200 
million.
    Mr. Butterfield. This is a county that doesn't have a 
hospital or a health center. This is a poor, rural county that 
is being picked on by the Navy. I don't necessarily agree with 
all of that, but they feel they are a victim, and they need 
direct investment in their county. I guess my question is: Will 
the Navy be willing to consider direct investment in addition 
to tax benefits to the county?
    Mr. Arny. Sir, we will definitely look at that.
    Mr. Butterfield. You have been very supportive of my 
questions as I have worked with you over the years. The Navy 
has been extremely accessible to me and my staff, and I want to 
thank all of you for what you have done.
    The Navy has stated recently it will not build an OLF in a 
community where it is not welcomed. I don't know to whom that 
statement is attributable, but my staff tells me the Navy has 
made that statement: that it will not build an OLF in a 
community where it is not welcome. Is that an accurate 
statement; and, if so, to whom should it be attributable?
    Mr. Arny. I don't know.
    Secretary Penn. I don't know who made the statement either, 
but we are taking aircraft to Florida now to do FCLPs, which 
impacts our crews, the life of the aircraft, and things like 
that. So we are doing everything that we can to support the 
community in that respect.
    Mr. Butterfield. Well, thank you. I am going to conclude my 
questions, Mr. Chairman, but I hope you would not build such a 
facility in a community where it is not welcomed, where it is 
unanimously opposed by the community.
    I yield back.
    Mr. Ortiz. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Arny, it is very nice to see you back here before 
our committee. And Secretary Penn, thank you for testifying 
this morning. Mr. Eastin and Mr. Billings, thank you also for 
being here with us.
    This question that I have is either for Secretary Arny or 
Secretary Penn. Gentlemen, as you are well aware, the NEPA 
process is ongoing on Guam and we hope to see a robust, 
thorough environmental impact statement some time later this 
spring. Now it has been reported in the Guam media that the 
Department is looking at private land acquisition on Guam to 
accommodate certain basic Marine training requirements. In 
light of these recent reports, some concern has been raised by 
members in our community on Guam about this acquisition of 
private lands and some question as to why not all federal lands 
cannot be used to accommodate these basic training 
requirements. So can you elaborate on why there is a need for 
the potential acquisition of this land?
    Secretary Penn. Yes, ma'am.
    Our goal when we started the initiative was to only use 
federal lands for this move. You are absolutely correct, we 
have a lot of land, and we would like to do everything we can 
on our own land. Through the NEPA process, we have found a 
couple of problems that will be sticky for us. There are four 
endangered species and we have to mitigate that. That 
mitigation will eat into a lot of the land that we thought we 
could use for main containment and for ranges. If that is the 
case, if we cannot mitigate against that, then we may go to the 
Governor of Guam or private sellers--and they have approached 
us about selling their land--to get the additional land. That 
is where we are on that.
    Ms. Bordallo. Mr. Arny.
    Mr. Arny. Again, I have not looked at it directly, but that 
is what I understand. As you know, up in northwest field, there 
is an environmental overlay that perhaps shouldn't be on there. 
That may restrict us in using our own land, which we would 
prefer to do.
    Ms. Bordallo. A follow-up on that question. Can you 
elaborate on the process that would be used to acquire these 
private lands if they are deemed necessary to acquire by the 
record of decision? Would the Department of Defense resort to 
using eminent domain at all to acquire these lands? Or is the 
Department even contemplating or open to this particular 
option?
    Secretary Penn. I don't think we are considering eminent 
domain, no, ma'am. We find in other areas, if we can lease the 
land, that does just as well for everyone concerned. The tax 
base is there, you have the land for whatever you want, and we 
get to use it for what we need. The Governor of Guam has talked 
about exchanging some land with us if we get to that point.
    Ms. Bordallo. If you get to that point. So in other words, 
you are looking at leasing rather than eminent domain. All 
right.
    My third question, Mr. Chairman, I have just one quick 
question; finally, the Guam legislature is considering 
legislation at this time, I think it is bill number 43, that 
would, if enacted, require the Guam legislature's approval for 
the sale or lease of any Guam land. Obviously this would 
complicate any private land acquisition options for the 
Department. How are you working to address this particular 
matter, and could you inform the committee how you are 
specifically working with the elected leaders on Guam to 
address their concerns?
    Secretary Penn. I just heard about this, ma'am. I know that 
the legislature is trying to get involved with some other 
things with the Governor, and we started out working with the 
Governor. We will continue to work with him. We will obey the 
law and do the right thing.
    Ms. Bordallo. I do know, Secretary Penn, and I will say for 
the record, that you have made every effort to work closely 
with our elected leaders in the legislature, and I thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. We just came back from Guam not too long ago, 
and their hospitality was outstanding and the people are very 
warm. Ms. Bordallo, thank you so much for receiving us in the 
manner that you all did.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Ortiz. I have one more question.
    Secretary Penn and Mr. Billings, the Navy and the Air Force 
have placed a needed emphasis on safety of flights for the 
military pilots and flight crews. However, I am concerned that 
this same level of emphasis is not provided to the local 
community that surrounds the military installations. Could you 
explain your position on the need to acquire land in the 
accident-potential zones that in some cases exceed the confines 
of the military installations?
    Mr. Billings. Yes, sir. Since the early 1950's, the Air 
Force has been working with our communities to find ways to 
utilize the land on our bases and around our bases to make sure 
that we protect both the pilots and the communities in areas 
that could provide potential danger. In the 1970's, we created 
a greenbelt initiative where we looked to both acquire land and 
to use processes in terms of easements to find more land to 
create more landing zone areas. And lately the Air Installation 
Compatible Use Program has worked with our communities to again 
find the lands that are available at the end of runways and 
moving forward to provide more land.
    We look first to work cooperatively for easements, and 
where necessary to buy land as a last resort, and, if at all 
necessary, to use eminent domain but to pay a fair market value 
for that. But there has been a history going back to the 
beginning of the Air Force and working with our communities to 
find the appropriate land to make sure that we can fly our 
missions.
    Mr. Ortiz. Because this has become a very serious problem. 
You know, some of the communities are very dependent on 
military bases because they provide good-paying jobs and 
retirement and so on and so forth. But what happens in some of 
the cities is they allow encroachment to get so close to the 
bases that we have had incidents where helicopters and planes 
have crashed. We want to be sure that we provide not only the 
flight crew and the pilots, for them to be safe, but also the 
community who resides right next to the bases. I hope you are 
looking at it and establishing guidelines.
    At the Corpus Christi Air Base, they spoke to the city and 
said you cannot build in this area because of the low-flying 
aircraft coming in. I hope we can look at this.
    Secretary Penn. We have established a community planner and 
liaison officer, and their sole purpose is to work with 
communities on issues like this, everything from the Accident 
Potential Zones (APZs) to the noise to prevent the 
encroachment, if we can. That is what happened to us in the 
past. No one was there to watch the encroachment as the city 
grew in around the bases. But now we have someone that will be 
there on watch.
    Mr. Arny. The Navy had folks in, I would say, the early 
1990's, the bases had some staffs, but budgets were cut, the 
market was down. So the base commander said we don't need those 
folks. And we forgot to hire them back when the market went up, 
and so now we are going back to enforce our easements and buy 
up land to protect not only the pilots but also the surrounding 
community.
    Mr. Billings. Mr. Chairman, while the Air Force has worked 
closely with our communities, and we have outlined the zones 
around the airfields, it is incumbent upon the communities also 
to work with the Air Force so that they create zoning 
requirements that don't allow certain activities in those 
areas. They know where the areas are, and it is important that 
we work together to make sure that the communities also do 
their part in zoning those properly, because we have run into 
instances where the communities have zoned certain areas so 
that houses could be built there when they knew that there were 
runways there and knew they were in APZ zones. It is a 
balancing act, sir.
    Mr. Forbes. Mr. Chairman, I have just one follow-up to 
Congressman Butterfield's question.
    Coming back to the OLF situation again, one of the things 
in countless meetings I have had--and again I just thank you 
all for what you do and so this is not a criticism but a 
question of how we do it better. In every meeting I have had 
regarding the OLFs, at some time the question that Congressman 
Butterfield laid on the table comes back, which is: What 
incentives can we give to the localities to help them support 
this decision? And every one of them is the same response that 
Secretary Arny just gave--and I am not being critical--``We 
don't know; we will get back to you.''
    We know we ought to have something put on the table. I have 
never been in one where someone pulls out a sheet of paper and 
says here are the possible things we can do and how can we get 
them laid on the table. Maybe you can respond back in writing 
to us at some point in time what are the incentives we can use, 
because it looks like to me if we don't have enough incentives, 
that is something we may need to be creating; because it may be 
economically better to give incentives to Mr. Butterfield's 
communities that he is talking about than trying to go 
somewhere else where land prices might be exorbitant.
    [The information referred to can be found in the Appendix 
on page 69.]
    But the second thing, those incentives do us no good when 
they come at the end of the process, because by then the 
community is locked into their feelings. To have any benefit at 
all, you have to go in at the beginning of the process, take 
the mayors, the board of supervisor members, and the council 
members and sit down and say, Here are some of the things that 
may help your community so they have things to want to try to 
help you. Right now what frustrates them and me and everybody 
else is we don't know what they are. Maybe they don't exist and 
we need to create them.
    Second, how can we create the legal mechanisms to allow you 
to put some of those things on the table for negotiation 
earlier on in the process?
    The final thing is, no matter how wonderful Admiral 
Anderson might be, when he is going to a community and saying, 
``but I don't have anything to give you, to offer you,'' it is 
very difficult for that community to come back and say, ``Come 
on in and bring us all of that noise and everything else.'' I 
just throw that out. You can respond now or in writing.
    Mr. Arny. I would like to comment. I think you have hit the 
nail on the head. Sometimes we operate within our own rules and 
don't look beyond. We don't have grant authority. There are a 
lot of things we in the Department don't have.
    If we were building another Oceana down in North Carolina, 
I don't think this would be an issue because we would be 
talking about putting in commissaries and exchanges, squadrons. 
We are talking about a field that we come down to at sunset and 
leave at midnight. So we have 60-80 jobs there. That is a plus. 
That is higher than when we were looking down in North Carolina 
originally in Washington County. But I would be very open to 
working with the committee and with Congress to see if we could 
have the authorities to work on some sort of grant where we can 
make a direct investment in a community, especially at a place 
like this, like an outlying field which doesn't have a big 
infrastructure that would bring the money with it.
    Mr. Forbes. As Congressman Butterfield mentioned, you may 
be able to help them with the health care situation, a business 
park or education, and be much cheaper than going to another 
site.
    Mr. Arny. Absolutely. As I said before, unfortunately, that 
is out of the control of most military officers dealing with 
it. They have a job to do and they go do it. You say, what 
about the local community, and even my experienced real estate 
people will sit down and tell me you don't have the authority 
to do that. So they are kind of in a box. But I would love to 
work with you all to get those kinds of incentives put in there 
so that we could go to the community, now it is after the fact, 
but say you guys are right, we worked with your 
representatives, here is what we can do to offset the impact of 
this field. It is necessary for national security, most people 
agree with that. We understand there is a price to pay other 
than the price of the land, and we want to help compensate you 
for that loss.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Secretary Arny, as you probably know, Hurricane 
Katrina hit the Mississippi gulf coast about three years ago. 
One of the things that really helped our military installations 
to help the local communities was the fact that they were self-
sufficient with things like water wells and sewer treatment. 
The first hot meals served on the gulf coast were at the 
military construction battalions the day after the storm, and 
it wasn't happening elsewhere.
    Secretary Rumsfeld had worked toward getting the bases to 
use community water, community sewer. Given that there is a 
pretty good chance there will be a Katrina-type event in the 
future, either an act of God or an act of man, and the 
importance of the bases in restoring confidence or in getting 
things done, I would really encourage you to give a good hard 
look at that. I think the fact that the bases were self-reliant 
was a very key factor in their ability to do a great job in 
south Mississippi; that the troops could go out and put in a 
hard day and still go home and take a hot shower and were 
getting hot meals and that they didn't have to go find a portal 
head.
    So again, as you work on your strategy, I would certainly 
hope you would keep that in mind. I think that was a mistake on 
the part of the Rumsfeld group, and I hope we can get that off 
track.
    Mr. Arny. We will look at it, sir. There is definitely a 
balance needed. We need our bases to be able to operate, 
especially in critical areas. On the other hand, we want to 
privatize if it saves us money. We don't want to spend more 
taxpayer money on utilities, but we definitely want to 
understand the balance between privatization and self-
sufficiency where it is critical.
    As Mr. Sienicki knows, because he was down there shortly 
thereafter, the base does have more facilities and was able to 
help the community around it.
    Mr. Taylor. Again, keep in mind that had they had to rely 
on community water, they probably would not have had water for 
weeks. So instead of being the great asset they were, they 
would have been a drain on the system like so many other 
things.
    And again, when people say what is the difference between 
what happened in Mississippi and what happened in New Orleans, 
quite frankly, we had wall-to-wall military installations to 
assist us and New Orleans did not. But the fact that they were 
self-sufficient was a very key factor in that.
    Mr. Ortiz. I think Mr. Taylor brought a valid concern to 
the hearing today.
    Thank you for your testimony and for appearing before our 
committee.
    Hearing no further questions, the hearing stands adjourned.
    [Whereupon, at 11:04 a.m., the subcommittee was adjourned.]



=======================================================================



                           A P P E N D I X

                           February 24, 2009

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 49449.001
    
    [GRAPHIC] [TIFF OMITTED] 49449.002
    
    [GRAPHIC] [TIFF OMITTED] 49449.003
    
    [GRAPHIC] [TIFF OMITTED] 49449.004
    
    [GRAPHIC] [TIFF OMITTED] 49449.005
    
    [GRAPHIC] [TIFF OMITTED] 49449.006
    
    [GRAPHIC] [TIFF OMITTED] 49449.007
    
    [GRAPHIC] [TIFF OMITTED] 49449.008
    
    [GRAPHIC] [TIFF OMITTED] 49449.009
    
    [GRAPHIC] [TIFF OMITTED] 49449.010
    
    [GRAPHIC] [TIFF OMITTED] 49449.011
    
    [GRAPHIC] [TIFF OMITTED] 49449.012
    
    [GRAPHIC] [TIFF OMITTED] 49449.013
    
    [GRAPHIC] [TIFF OMITTED] 49449.014
    
    [GRAPHIC] [TIFF OMITTED] 49449.015
    
    [GRAPHIC] [TIFF OMITTED] 49449.016
    
    [GRAPHIC] [TIFF OMITTED] 49449.017
    
    [GRAPHIC] [TIFF OMITTED] 49449.018
    
    [GRAPHIC] [TIFF OMITTED] 49449.019
    
    [GRAPHIC] [TIFF OMITTED] 49449.020
    
    [GRAPHIC] [TIFF OMITTED] 49449.021
    
    [GRAPHIC] [TIFF OMITTED] 49449.022
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 24, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 49449.023
    
    [GRAPHIC] [TIFF OMITTED] 49449.024
    
    [GRAPHIC] [TIFF OMITTED] 49449.025
    
    [GRAPHIC] [TIFF OMITTED] 49449.026
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 24, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Mr. Arny. When DoD seeks to acquire property for an authorized DoD 
project, there are certain benefits and mitigations that we can provide 
as part of the project, but our authority is limited. The Department 
provides just compensation to every property owner from whom property 
interests, either fee simple or lesser interests such as lease or 
easement, are acquired. The Department provides relocation assistance 
benefits to any residents and businesses, including farmers, which are 
displaced by the project. These benefits include relocation planning 
and advisory services, and payments for moving expenses, replacement 
housing, business reestablishment, and utility service relocation. The 
Department mitigates environmental impacts attributable to the project 
to the maximum practicable extent. Under the Defense Access Road 
program, the Department can pay its fair share for public highway 
improvements resulting from sudden or unusual defense-generated 
impacts, if certain criteria are met. The Department can work with the 
local community to seek compatible private sector uses that can co-
exist with the project. In the case of the OLF, this includes allowing 
current compatible agricultural uses of the property to continue except 
on the limited footprint of the actual runway and related facilities. 
But the Department does not have standing authority to make grants or 
similar payments to a local community to compensate for reduced 
property tax revenues, or as an incentive to promote general community 
support for the project. Such authority would need to be provided by 
the Congress as part of the project authorization. [See page 31.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP
    Secretary Eastin. The Army does not have excess or surplus maneuver 
training land capacity at any of its training installations inside the 
Continental United States (CONUS) where operational units are assigned. 
However, you are correct in pointing out that some of the Army's other 
installations in Utah like Dugway Proving Ground, have a lot of land. 
The existence of large quantities of Army or federal land does not 
automatically mean it is available for use in maneuver training 
exercises. In many cases this land may not be suitable for maneuver 
training because of incompatibility with their important research, 
development, test, and evaluation (RDT&E) missions, terrain, or 
environmental factors.
    Assuming an RDT&E site's mission is or can be made compatible with, 
and available for, Army maneuver training, the next question would be 
where the closest Brigade Combat Team (BCT), Combat Support (CS), or 
Combat Service Support (CSS) units are located in relation to the RDT&E 
land assets. Dugway Proving Ground's main mission is testing for 
Chemical and Biological weapons defense. This mission quite naturally 
requires a very large and remote site in order to maximize safety, and 
minimize risks to nearby civilian populations.
    Due to Dugway's very remote nature, maneuver training would entail 
transporting a unit's personnel and equipment from existing operational 
installations to Dugway to conduct collective training at the battalion 
and brigade level. This is not only an expensive proposition, but more 
importantly it takes additional time away from Soldier Families.
    Normally, when an installation is looking to utilize other nearby 
land assets to support maneuver training, it uses a 200 mile radius as 
a standard factor because such a distance requires four to five hours 
of travel time by military convoy. Experience has shown that it becomes 
extremely difficult for units to organically execute distances greater 
than 200 miles on a regular basis. Driving distance also significantly 
reduces training time and increases the possibility of safety issues 
and unnecessary hazard to the force.
    If a large portion of a unit's training were to take place more 
than 200 miles from the installation, the Army would look at re-
alignment of the units closer to training assets to reduce these 
impacts. In the case of Dugway, there are insufficient infrastructure 
and quality of life facilities in place to accommodate stationing an 
Infantry or Heavy BCT unit at the site full time.
    The Army did consider the possibility of stationing an Infantry BCT 
(IBCT) at a remote and undeveloped site during the Grow the Army 
stationing process. For example, the cost of stationing an IBCT at the 
Pinon Canyon Maneuver Site (PCMS) was compared with the cost of 
stationing it at Fort Carson. PCMS is an austere, dedicated maneuver 
site with no significant cantonment area. More than $331 million in 
additional infrastructure and quality of life investments to support 
stationing an IBCT at PCMS would be required. As a result, stationing 
an IBCT was rejected as an infeasible option. Stationing a major 
operational unit at Dugway would require a similar cost-prohibitive 
investment. [See page 26.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. The Army has indicated that they intend to avoid the use 
of eminent domain to acquire land at Pinon Canyon. How does the 
Department intend to use eminent domain and what restrictions has the 
Department placed on the Services in carrying out a condemnation using 
eminent domain?
    Mr. Arny. DoD follows the same statutory and regulatory 
requirements that apply to all federal agencies in acquiring real 
property, including use of condemnation authority. Under those 
procedures, DoD only acquires property for authorized projects to meet 
national defense requirements that cannot be met any other way. The 
Department makes every reasonable effort to acquire property by 
negotiation with willing sellers. Sometimes it becomes necessary to ask 
the Department of Justice to initiate eminent domain proceedings 
because: there may be title issues that DoD and the property owner 
cannot resolve without court proceedings; an otherwise willing seller 
may not agree with the DoD estimate of just compensation and wants a 
court to decide fair market value; in some cases, an owner of property 
that DoD needs to acquire as part of an authorized acquisition project 
may simply be unwilling to sell at any price.
    Mr. Ortiz. OSD individually approves Service requested, land 
acquisitions in excess of 1,000 acres. In some cases, this land 
acquisition process has impeded the Services from promptly responding 
to opportunities in acquiring land or limiting encroachment. 
Considering the Services are required to use MILCON process to acquire 
the land and the NEPA process to evaluate community concerns, is the 
OSD process of individually approving service requests redundant and 
too time consuming?
    Mr. Arny. OSD exercises oversight of major DoD land acquisition 
proposals to ensure they are based upon thoroughly vetted requirements 
that cannot be met by any other means, and are properly planned. 
Project planning lead times provide ample opportunity for the Services 
to obtain timely advance OSD review and approval without affecting 
acquisition schedules. OSD review also ensures that major land 
acquisition proposals have visibility with senior Military Department 
and OSD leadership before they go forward. The OSD prior approval 
requirement does not apply to encroachment buffer acquisitions from 
willing sellers under the authority of section 2684a of title 10, 
United States Code, provided DoD does not acquire a possessory property 
interest or the right to operate, test, or train on the property.
    Mr. Ortiz. The Department still retains significant tracts of land 
that have been declared surplus. What are the principal impediments to 
conveying prior BRAC lands that have been declared surplus?
    Mr. Arny. DoD has made significant progress conveying prior BRAC 
lands. Over 90% of prior BRAC property has been conveyed, including 
Leases In Furtherance Of Conveyance (LIFOC). Principal impediments to 
completing the remaining prior BRAC conveyances include:
    <bullet>  Environmental issues, including addressing unexploded 
ordnance, that prevent transfer until cleanup can be completed.
    <bullet>  Communities change reuse plans that causes the need to 
revise and re-negotiate previously planned property conveyances and 
creates additional environmental impact analysis requirements.
    <bullet>  Local reluctance to proceed with conveyance before all 
environmental cleanup is complete, even though conveyance could proceed 
under statutory authority for early transfer.
    Mr. Ortiz. The Department retains significant amounts of land from 
previous rounds of BRAC. Many of these parcels lack the environmental 
remediation funding to place this real estate back into productive use. 
In total, the Department is projecting $3.8B to complete the 
environmental remediation of previous rounds of BRAC. What steps is the 
Department taking to secure sufficient funds to complete the 
environmental remediation and return surplus Department real estate 
back to productive use for the local community?
    Mr. Arny. The Department is requesting the funds needed to support 
cleanup plans and schedules to complete the remaining environmental 
remediation. The Department programs for BRAC environmental remediation 
is based on cleanup plans and schedules developed with regulators that 
are designed to protect human health and the environment. Along with 
protection of human health and the environment, these schedules must 
also account for the technology available and time necessary to perform 
the specific cleanup. A cleanup may take years to properly complete and 
the cost of that performance may stretch over many budget cycles. As 
the environmental remediation is completed, the Department continues to 
work with the Local Redevelopment Authority (LRA) to put the property 
back into productive use. Each year, the Department budgets for the 
BRAC environmental remediation funds to satisfy the cleanup 
requirements scheduled for that fiscal year.
    When possible, the Department is also using the authority to 
transfer property before all environmental cleanup is complete, known 
as Early Transfer Authority. Where we can transfer property before 
cleanup is complete, we can save time and usually save money by 
integrating the cleanup with redevelopment of the property. For 
example, at McClellan AFB the Air Force is incrementally privatizing 
the cleanup of the installation in conjunction with Early Transfer 
Authority. Under this approach, LRAs, communities, environmental 
regulatory agencies, and DoD work together to strike an acceptable 
balance between environmental cleanup schedules and the need for 
economic revitalization. At other installations, DoD is using 
Performance-Based Remediation Contracts to more quickly implement and 
operate remedies to achieve ``remedy operating properly and 
successfully'' or ``no-further-remediation-necessary'' status, thus 
allowing expedited property transfers. These contracts allow the 
remediation contractor to craft more innovative approaches to implement 
and complete environmental remediation based on clear performance 
objectives and satisfaction of requirements established by 
environmental regulatory agencies.
    Mr. Ortiz. The Army has reported that it has a 5,000,000 acre 
training deficit across multiple installations. How does the Army 
intend to address the existing deficit in training space? If the Army 
is unable to acquire the documented deficit in real estate, will this 
adversely impact military readiness? How?
    Secretary Eastin. The purpose of the Department of the Army's Range 
and Training Land Strategy (RTLS) is to address the existing land 
deficit in training space facing the Army. The RTLS prioritizes Army 
training land investments and optimizes the use of all Army range and 
training land assets. The RTLS also provides a long-range plan for the 
Army to provide the best range infrastructure and training land to 
units.
    The RTLS was developed in five phases. The first phase was to 
inventory current Army training assets. The second phase examined land 
values, parcel ownership, environmental constraints, environmental 
requirements, and population trends from public records to identify the 
best opportunities for training land acquisition and buffering. The 
third phase analyzed available land data to recommend short-term and 
long-term opportunities based on Army priorities. The RTLS process is 
designed to ensure that Army planners continually reevaluate land 
requirements against the Army Campaign Plan (ACP) and current Army 
priorities. The fourth phase was the establishment of planning 
objectives and the identification of installations where land 
acquisition supports the ACP. The fifth and final phase was to evaluate 
public attitudes and provide outreach support for specific land 
acquisitions.
    The deliberate phases of the RTLS provide the framework for the 
Army to select the most appropriate course of action to address 
training land shortfalls at specific Army installations. The options 
that the Army can pursue to overcome the 4.5 million acre training land 
deficit include: focused management to maximize existing land holdings, 
buffering through partnerships, utilization of other federal lands 
where possible, and land acquisition.
    Focused management. The Army Sustainable Range Program (SRP) 
continually strives to maximize the capability, availability, and 
accessibility of all Army training lands. The RTLS may indicate that a 
land shortfall can be addressed using internal Army or federal 
government mechanisms. An example of this is approach can be seen at 
Fort Bliss, where the Army reassessed the traditional relationship 
between the Fort Bliss mission and the White Sands Test Range mission 
to enable more training activities on the White Sands Range, and 
thereby mitigate training burdens on Fort Bliss lands. Unfortunately, 
the use of focused management does not always provide a complete 
solution to an installation's training land deficit. Therefore the Army 
must look at other alternatives to supplement more focused management.
    Buffering through Partnerships. Army Compatible Use Buffers (ACUBs) 
allow the Army to preserve or enhance an installation's current 
training land capabilities by minimizing encroachment. ACUBs serve to 
insulate Army training from encroachment and can be used to reduce 
environmental restrictions to training. However, ACUBs are not always 
available as a viable option to mitigate critical training land 
deficits.
    Utilization of other federal Lands. The Army examines the land 
status of other federal entities to mitigate land deficits at Army 
installations. Land that borders Army installations, and is held by the 
Bureau of Land Management (BLM) or Fish and Wildlife Service, may be 
transferred or made available to the Army after a comprehensive 
approval process that includes NEPA and other public reviews. Both Fort 
Carson and Fort Polk utilize U.S. Forest Service (USFS) lands under a 
special use permit. While not all training activities are permitted on 
USFS land, the special use permit at Fort Polk allows Army training on 
an additional 98,000 acres. However, the existence of large quantities 
of federal land does not translate automatically into useable maneuver 
training land capacity. Due to terrain incompatibility and 
environmental issues most of the millions of federal acres cannot be 
used for large-scale maneuver training with any meaningful degree of 
realism, or at all.
    Land Acquisition. In some circumstances, the Army will pursue the 
purchase of land to mitigate training land deficiencies. The current 
Army position is to purchase land only where it is feasible, 
operationally sound, affordable, and compatible with environmental 
conditions and requirements. The land acquisition approach is only 
pursued at an installation when it is clearly established as the best 
solution for supporting Army training requirements to meet ACP goals.
    If the Army is unable to address the documented deficit in real 
estate through the combined use of the alternatives identified above, 
there will be impacts to training capability. Commanders may have to 
employ `work-arounds' to accomplish required training events. While 
`work-arounds' can be successfully employed by commanders to address 
some training capability shortfalls, long-term use of major work-
arounds can have a negative impact on the training and unit capability. 
Significant training land shortfalls require units, particularly at the 
brigade level, to develop `work-arounds' that train units without 
stressing their full operational capability. This creates the risk of 
developing bad habits in training and imbeds false expectations as to 
true battlefield conditions.
    Army training standards are based on lessons learned in combat and 
tactical wisdom purchased at great human cost. Every `work-around' is 
essentially a trade-off that makes training less realistic than the 
conditions they will face in a combat situation. This is a particularly 
significant challenge with respect to operating over large operational 
areas, employing manned and unmanned aviation, conducting logistics 
operations, and using state-of-the-art communication and intelligence 
collection and dissemination systems that require unfettered access to 
the electro-magnetic spectrum.
    Training capability will be impacted if the Army is unable to 
address training land shortfalls. Any particular unit training 
readiness levels are determined by commanders. Each commander must 
assess the degree to which work-arounds affect the unit's operational 
capability.
    Mr. Ortiz. The Army initially indicated that it intended to acquire 
over 400,000 acres of land to support the existing Pinon Canyon range. 
The Army has since reduced their requirements to 100,000 acres. A 
request for land acquisition is expected in the fiscal year 2010 budget 
request. Why has the Department vacillated on the acreage required to 
support training in Southeastern Colorado? If the Department is unable 
to acquire additional land in the Pinon Canyon region, will this 
adversely impact the stationing plan at Fort Carson? Please explain how 
the Department is planning to acquire land and specifically, how 
eminent domain is planning to be used.
    Secretary Eastin. The Army's doctrinally based requirement for at 
least 418,577 additional acres of training land has never been reduced, 
and was not challenged or questioned in the recent Government 
Accountability Office (GAO) report (GAO-09-171). In May 2006, Fort 
Carson's HQDA-approved Land Use Requirements Study (LURS) validated the 
need for an additional 418,577 acres of training land at Pinon Canyon 
Maneuver Site (PCMS) to support training for Soldiers stationed at Fort 
Carson. In February 2007, the Office of the Secretary of Defense (OSD) 
approved the Army's request for a waiver to pursue land acquisition for 
up to 418,577 acres at PCMS. The LURS and OSD approval were completed 
before the Grow the Army (GTA) decision was complete.
    At the request of Congress, the Army conducted additional review 
and analysis of the feasibility of acquiring 418,577 acres and 
determined that an acquisition of 100,000 acres was feasible and would 
provide the greatest training benefit, at the lowest cost, the lowest 
acreage footprint, and with the fewest number of affected landowners 
and communities. While the acquisition of 100,000 acres, alone, 
addresses less than one quarter of the doctrinal requirement to fulfill 
the training land shortfall at Fort Carson/PCMS, it would provide 
operational benefits and enhanced training for Soldiers and units 
stationed at Fort Carson. If combined with the existing PCMS acreage, 
this expanded training area would significantly enhance the Army's 
overall capability for maneuver training. Specifically, this area would 
provide sufficient space to allow a Heavy Brigade Combat Team (HBCT) 
and an Infantry Brigade Combat Team (IBCT) to conduct simultaneous 
combat training at PCMS.
    The acquisition of the additional 300,000 acres of land would 
involve significant difficulties for both the Army and for the 
surrounding communities. The Army's primary challenge is that land 
acquisition resources are not unlimited. There are budgetary 
constraints and competing requirements for limited resources that will 
prevent purchase of the additional land. Additionally, engagement with 
community stakeholders continues to highlight a number of other issues 
and concerns. The Purgatoire River and existing PCMS split Las Animas 
County into two distinct and noncontiguous areas, and additional 
expansion to the west of PCMS exacerbates this issue. There are also 
concerns about the historic and culturally sensitive Santa Fe Trail. In 
addition, a larger expansion area would impact a greater number of land 
owners. Based on the combined impact of these factors, the Army 
concluded that acquisition of 418,577 acres was not suitable and 
reduced the scope of the potential expansion project, not the training 
requirement, to 100,000 acres.
    The current stationing plan at Fort Carson is being analyzed along 
with stationing plans, Army-wide. On 6 April 2009, Secretary of Defense 
Gates announced the revised FY 10 Defense Budget Estimate and indicated 
that the Army would be reducing the total number of Brigade Combat 
Teams from 48 to 45. The Army is still working to determine the impacts 
of this announcement and consider our way ahead relative to the 
guidance we received in order to develop a definitive Army way forward.
    With regard to the use of eminent domain, I have testified to 
Congress that condemnation/eminent domain will not be used to acquire 
or lease land at PCMS. The Army will deal only with willing property 
owners. Condemnation will only be used if requested by a property owner 
for clearing title or tax purposes. Additionally, the Army would not 
acquire or lease any land for military training until the conclusion of 
the preparation of an Environmental Impact Statement (EIS) in 
accordance with the National Environmental Policy Act (NEPA). The EIS 
process provides multiple opportunities for public participation and 
input.
    I share the Committee's concern that the legitimate and legal 
private property rights of land owners be protected. But protecting 
private property rights must also include the right to sell or lease 
property. In America, a private landowner who wants to sell or lease 
property to whomever they wish--including the U.S. Army--should be free 
to do so without being intimidated or having their property rights 
vetoed by outside persons.
    Mr. Ortiz. As compared to the other Services, the Army has the 
largest amount of real estate from prior rounds of BRAC that remains 
surplus and has yet to be conveyed. What steps is the Department taking 
to rapidly dispose of excess land?
    Secretary Eastin. The Army remains committed to supporting 
communities by identifying ways to transfer the remaining acreage from 
prior BRAC rounds as quickly and safely as possible. The future owners 
of this acreage have been identified, and transfer agreements are in 
place. However, environmental issues prevent the transfers from 
occurring as expeditiously as we would like. Nearly all of the 
remaining acreage is contaminated with residual munitions and 
explosives of concern (MEC). MEC cleanup is a complex and lengthy 
process. We are addressing the future owners' highest priorities with 
the resources available, but completion of the cleanup will take a 
number of years.
    Mr. Ortiz. The Navy has indicated their intent to acquire 30,000 
acres of real estate interests to support Navy aviation requirements. 
Significant local opposition has developed against the proposed OLF 
sites in Virginia and North Carolina. If the local community opposes 
the expansion of Navy real estate interests, will the Navy seek to 
acquire land using eminent domain? What alternatives does the Navy have 
if local opposition to the OLF prevails?
    Secretary Penn. Department of the Navy policy is to acquire only 
such property or property interests that are required to meet the 
military mission. An Outlying Landing Field will typically include 
property for construction of the airfield as well as buffer and 
security areas sufficient to meet the mission. Property interests 
acquired will be the minimum necessary to meet mission requirements and 
would allow for continued compatible use by private property owners 
where possible.
    The Navy will make every effort to acquire property by negotiated 
purchase from willing sellers and property owners will be compensated 
at full fair market value for all property interests to be acquired by 
the Navy. Eminent domain procedures will only be employed as a measure 
of last resort or at the request of the seller. Before commencing any 
legal proceeding to acquire property interests through eminent domain, 
the Secretary of the Navy shall pursue, to the maximum extent 
practicable, all other available options for the acquisition or use of 
the land. In the event that acquisition through eminent domain is the 
sole option upon which the Navy mission can move forward, then the 
Secretary of the Navy will submit to the appropriate committees a 
report as required by 10 U.S.C. 2663(f).
    The proposed OLF addresses an existing critical training shortfall 
that the Navy safely mitigates, when necessary, by extending training 
throughout the night and early morning hours at NALF Fentress; by 
conducting training at area homebases; and by conducting detachments to 
OLFs located outside of the local training area. These mitigation 
actions result in increased training costs, increased PERSTEMPO, and 
increased impacts on local communities, all while impacting the quality 
of training.
    As such, to provide the necessary facilities to train in the most 
realistic manner possible, the Navy has taken the necessary due 
diligence to address public comments and community concerns raised over 
this project during the last several years and fully expects to arrive 
at a solution that both supports our training requirements and 
mitigates impacts on the local community.
    Mr. Ortiz. The Navy has taken steps to secure real estate interests 
in areas where aviation accidents are most likely to occur. However, 
there remains significant real estate that could pose a threat to the 
local community because of aviation operations. What steps is the Navy 
and Marine Corps taking to limit aviation accidents to the local 
community? Does the Navy and Marine Corps have a program for each 
installation that limits aviation incidents to the local community?
    Secretary Penn. The Department of Navy has a very aggressive Air 
Installations Compatible Use Zones (AICUZ) program focused on air 
operations and land use compatibility in high noise and safety zones. 
The DON is continually evaluating our training requirements and seeking 
alternatives to mitigate noise and safety concerns while preserving our 
mission capabilities. Through the AICUZ Program, installations work 
with local officials to foster compatible land use development though 
land use controls such as zoning. Additionally, most Navy and Marine 
Corps installations have a Community Plans and Liaison Officer (CPLO) 
on staff to work with neighboring communities to address their 
concerns.
    Mr. Ortiz. As compared to the other Services, the Navy has the 
largest amount required environmental remediation that impedes 
conveyance from prior rounds of BRAC. What steps is the Department 
taking to secure sufficient environmental remediation funds to ensure 
rapid disposal of excess real estate?
    Secretary Penn. The Department of the Navy continues to diligently 
make progress on environmental remediation at prior BRAC bases. After 
investing over $1.1B in land sale revenue in the prior BRAC program 
over the last several years, the DON has resumed requesting 
appropriations for continued advancement of the prior BRAC 
environmental program. Additionally, we will apply any future land 
sales revenues to the cleanup budget.
    Despite a dramatic increase in the program cost to complete due to 
discovery of pervasive low-level radioactive waste at the former 
Hunters Point Naval Shipyard, DON has made great progress in advancing 
cleanup to support conveyance and redevelopment. At the former Hunters 
Point Naval Shipyard, we recently signed 2 Records of Decision and have 
been tailoring cleanup to support the City of San Francisco's stadium 
redevelopment efforts. Employing an unprecedented number of 
treatability studies has allowed use of various technologies which are 
resulting in dramatically accelerated cleanup.
    We are very appreciative of the continued additional Congressional 
support of our program and have been applying those funds to accelerate 
cleanup of parcels to support redevelopment priorities identified by 
the communities. We also intend to continue to convey property that is 
clean and provide a complementary Lease in Furtherance of Conveyance 
(LIFOC) for any areas that still required cleanup. In most cases, this 
facilitates redevelopment while the Navy completes cleanup actions. We 
are also pursuing other creative conveyance transactions whereby the 
recipient can receive the property and accept the clean up requirements 
in exchange for fair market value. This allows the property to be 
conveyed and cleaned up under the control of the developer with 
potential for saving money by combining the efforts.
    Mr. Ortiz. The Air Force has taken steps to secure real estate 
interests in areas where aviation accidents are most likely to occur. 
However, there remains significant real estate that could pose a threat 
to the local community because of aviation operations. What steps is 
the Air Force taking to limit aviation accidents to the local 
community? Does the Air Force have a program for each installation that 
limits aviation incidents to the local community?
    Mr. Billings. Answer 1a. The areas with the greatest accident 
potential is the runway, followed by the clear zone, Accident Potential 
Zones (APZs) I and APZ II at the end of Air Force installation runways. 
Air Force installations continually work with local communities to 
limit development to low densities in APZs I and II. The Air 
Installations Compatible Use Zones (AICUZ) program discourages land 
uses that concentrate large numbers of people in a single area, e.g. 
churches, schools, auditoriums, residential, and manufacturing that 
involves flammable materials from being located in these two zones. Low 
intensity land uses such as some light industrial, wholesale trade, 
some business services, recreation, agriculture, and open space, 
mineral extraction can be compatible in APZ I if they don't create 
emissions that create visibility problems or attract birds. Compatible 
land uses for APZ II include all the ones compatible in APZ I plus a 
few more types of manufacturing, low intensity retail trade and low 
density single family residential (1-2 dwelling units per acre).
    The installations and local communities can also pursue 
encroachment partnering projects within APZ and seek funding through 
OSD's Readiness and Environmental Protection Initiative (REPI) program.
    Answer 1b. Yes. The Air Force conducts its aviation mishap 
prevention program under policy, guidance and oversight issued by the 
Air Force Chief of Safety. At the direction of the Air Force Chief of 
Safety every installation responsible for a flying mission maintains a 
flight safety program with the over-arching goal of preventing aviation 
mishaps. An important part of that goal includes preventing mishaps on 
and around installations where Air Force aircraft operate.
    To accomplish that goal, Air Force installations incorporate mishap 
prevention programs in concert with community involvement, partnering, 
and information sharing. Some examples include:

    MACA--Mid-Air Collision Avoidance programs

    -  Base level safety office programs required by Air Force 
regulation

    -  Community involvement is usually high

    -  Includes comprehensive web sites for most bases who share 
airspace with local flying communities/airports/FBOs

        -  Can involve road-shows to local airports/flying orgs

        -  Bases are required to keep and update a MACA Pamphlet for 
        the local community on a regular basis

                <all>  Usually contains basic information about the 
                military base traffic pattern, procedures for passage, 
                ATC radar codes, radio frequencies, etc.

    -  Very helpful for local aviators who may or may not have in-depth 
knowledge on the local military operations

    BASH--Bird Aircraft Strike Hazard programs

    -  Each base develops its own procedures depending on local hazards 
in accordance with Air Force safety policy

    -  Includes risks from all wildlife, not just birds

    -  Many utilize local outreach programs to keep problem species 
from public/private land surrounding bases. Example: A border collie to 
harass geese on private land around McConnell AFB with landowner 
permission

    -  Local threat information is also available publicly via world 
wide web (Avian Hazard Assessment System [AHAS] and Bird Avoidance 
Model [BAM] web sites, which use historical data and Next Generation 
Radar [NEXRAD] data to assess strike hazards for any particular time 
period)

    Flight Safety Participation in Airfield Certification Processes

    -  Airfields are designed for safe operations and to be compliant 
with federal laws regarding aspects of flight safety. Examples are 
runway clear zones, airspace considerations, etc.

    -  Locally, flight operations are designed to be limited over 
populated areas--aircraft are normally directed to turn, if 
practicable, prior to overflying densely populated areas

    -  Traffic patterns are designed to be on the less-populated side 
of the runway, and usually include altitude restrictions associated 
with each local area.

    -  Designated ``No Fly'' areas based on population density or 
mishap potential.

        <all>  Each local area has different requirements

        <all>  Surroundings areas reevaluated for population growth

    -  Air field certifications are reviewed on a recurring basis with 
Safety's participation and input

    ORM--Operational Risk Management

    -  Risk management decisions are made at the appropriate levels

    -  Aircraft commanders are ultimately responsible for the safe 
conduct of flights

    -  Leadership implements control measures for increased risk due to 
weather, natural disaster, or anything else

    -  Aircrew undergo formal annual and quarterly training on risk 
management techniques

    -  Active safety mitigation strategy via Supervisor Of Flying (SOF) 
duties. During active flying periods, SOF personnel are on duty to aid 
aircrews in solving in-flight emergencies. Such services may include, 
but are not limited to, reading emergency checklists, arranging for 
phone patches with Air Force System Program Offices (SPOs) or onsite 
engine/aircraft tech representatives to solve the emergency and safely 
recover the aircraft. Options also include diverting aircraft from the 
primary airbase to other outlying recovery bases or airfields that have 
been preselected prior to the actual mission.

    CRM--Crew/Cockpit Resource Management

    -  Formal recurring training for all aircrew members which stresses 
risk management, crew coordination, communication skills (for example, 
using standard terminology with ATC), and many other factors.

    -  Annual simulator requirement with profiles that stress emergency 
procedures and safe recovery options (better to practice in the 
simulator first before having it happen in the aircraft).

    In addition to the above listed programs, the Air Force also 
sponsors an aggressive foreign object damage (FOD) prevention program, 
and investigates local hazardous air traffic reports (HATRs) to 
identify and mitigate hazards to all aircraft operating in and around 
airfield environments.
    Mr. Ortiz. The Air Force has over 10,000 acres of real estate that 
remain to be conveyed and almost $1B of environmental remediation 
remaining to complete. What steps is the Department taking to rapidly 
dispose of excess land? What steps is the Department taking to secure 
sufficient environmental remediation funds to ensure rapid disposal of 
excess real estate?
    Mr. Billings. In 2006, the Air Force implemented a BRAC Master Plan 
Strategy which integrated BRAC property transfer authorities, private-
sector real estate opportunities, and aggressive procurement of 
remaining environmental remediation into one executable road map. As 
part of the master plan dedicated transaction teams were developed to 
focus on the priorities in support of property transfer with a goal to 
transfer all property by 2010 with the exception of the former 
McClellan and George Air Force Bases, which are on projected for 
transfer by 2012. Other strategies incorporated in the master plan 
include the use of early transfer methods, open communication with 
stakeholders, and on-going communication with regulators.
    The program requirements development process is used to plan, 
program and budget to adequately acquire funds for current and future 
environmental projects. The developed process provides consistency 
throughout the agency to develop accurate and reliable cost to complete 
estimates to program for out year funding requirements based on 
historical and current expenditures. In addition, the BRAC master plan 
includes increased use of performance base contracts which allows 
flexibility for environmental cleanup at a lower cost, i.e., 
competitive bid.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. The Iowa National Guard had four facilities included 
in the 2005 BRAC round. Of these, three, all of which are in my 
District, have yet to be funded. The Cedar Rapids and Middletown sites 
include Armed Forces Readiness Centers and Field Maintenance Shops. The 
Muscatine site is a Readiness Center. The facilities were built in 
1916, 1950, and 1973 respectively. They are too small to support 
current operations, they contain asbestos, and are prone to flooding. 
Yet the Iowa National Guard has not received funding to improve the 
sites in over fifteen years. My understanding from correspondence with 
the Department of Defense in 2008 is that these three sites are slated 
for funding under BRAC 2005 in FY 2010. However, I am deeply concerned 
about the cost overruns and delays in the BRAC process, and I fear that 
the National Guard is being left behind with the possible result that 
the plans for the Cedar Rapids, Muscatine, and Middletown sites will 
have to be scaled back. Mr. Arny and Mr. Eastin, please provide me with 
a status update for the Cedar Rapids, Middletown, and Muscatine BRAC 
sites. Specifically, I would like you to provide me with information 
about the planned funding timeline for the sites; whether they are 
being considered for funding provided by the American Economic Recovery 
and Reinvestment Act; and whether the original plans for those sites 
will still be carried out to their full intent.
    Mr. Arny. As submitted in the FY 2009 BRAC request, these projects 
are currently programmed for construction in FY 2010. As of this date, 
the Army's FY 2010 budget is not yet final, so I cannot provide you 
with specific details. As soon as the fiscal year 2010 President's 
Budget Request is released, we will be able to provide you with 
specific details. The Department is committed to all BRAC requirements 
being completed by September 15, 2011. These projects are not being 
considered for funding in the American Economic Recovery and 
Reinvestment Act.
    Mr. Loebsack. The Iowa National Guard had four facilities included 
in the 2005 BRAC round. Of these, three, all of which are in my 
District, have yet to be funded.The Cedar Rapids and Middletown sites 
include Armed Forces Readiness Centers and Field Maintenance Shops. The 
Muscatine site is a Readiness Center. The facilities were built in 
1916, 1950, and 1973 respectively. They are too small to support 
current operations, they contain asbestos, and are prone to flooding. 
Yet the Iowa National Guard has not received funding to improve the 
sites in over fifteen years. My understanding from correspondence with 
the Department of Defense in 2008 is that these three sites are slated 
for funding under BRAC 2005 in FY 2010. However, I am deeply concerned 
about the cost overruns and delays in the BRAC process, and I fear that 
the National Guard is being left behind with the possible result that 
the plans for the Cedar Rapids, Muscatine, and Middletown sites will 
have to be scaled back.Mr. Arny and Mr. Eastin, please provide me with 
a status update for the Cedar Rapids, Middletown, and Muscatine BRAC 
sites. Specifically, I would like you to provide me with information 
about the planned funding timeline for the sites; whether they are 
being considered for funding provided by the American Economic Recovery 
and Reinvestment Act; and whether the original plans for those sites 
will still be carried out to their full intent.
    Secretary Eastin. As of this date the DoD FY10 budget is not yet 
final, but the Army would prefer to fund all three of these projects. 
As soon as the fiscal year 2010 President's Budget Request is released, 
we will be able to provide you with specific details. Please be assured 
that the Army is working hard to complete all BRAC 2005 actions by the 
September 2011 statutory deadline.
    The American Economic Recovery and Reinvestment Act spending plan 
can be downloaded at: http://www.defenselink.mil/recovery/
plans_reports/2009/march/Final_ARRA_Report_to_Congress-
24_Mar_09ver2.pdf
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. At Fort Huachuca we have a very unique situation. The 
need for easements extends well beyond the fence line in order to 
protect the very unique electromagnetic atmosphere surrounding the 
Fort. While the relationship between the Fort and the community is very 
good, the State of Arizona grants extraordinary land rights to the 
private individual. Increased development around the Fort presents a 
potential risk to the pristine testing grounds there. What is the 
Army's short-term and long-term plan to protect the electromagnetic 
testing grounds and the Fort Huachuca area from further development?
    Secretary Eastin. The Army plans to protect land around Fort 
Huachuca from incompatible land use with Army Compatible Use Buffers 
(ACUB) and improved communication on development of new facilities 
outside the installation that may impact electromagnetic spectrum 
usage. These are both current and long-term solutions.
    ACUBs are authorized by 10 USC 2684a, which allows military 
departments to partner with government or private conservation 
organizations to limit development that is incompatible with 
installation missions. ACUB partners enter into real estate 
negotiations only with willing sellers. The Fort Huachuca ACUBs 
concentrate on sustaining the mission and maintaining ecosystem 
function to comply with the Endangered Species Act. The mission focus 
of ACUB includes preventing incompatible land use to protect the 
electromagnetic spectrum, protect training space for unmanned aircraft, 
and retain military airspace. The current objective is for the partner, 
The Nature Conservancy, to pursue conservation easements on the 
approximately 18,000 acre Babocomari Ranch located north and northeast 
of the installation.
    Communication was enhanced by passage of state law in 2008 that 
requires municipalities and counties to notify military electronics 
range commanders of proposed rezoning or potential erection of systems 
on land that may impact spectrum use. This communication gives Fort 
Huachuca the opportunity to educate a potential land buyer of the 
potential for interference due to emissions from the installation.
    Ms. Giffords. Given the current recession and the general decrease 
in demand for land and development, are you considering spending more 
funds now on additional real estate purchases to take advantage of the 
decreased prices? Could you execute additional funds if this Committee 
decided to provide them?
    Secretary Eastin. Current real estate market conditions do not 
drive land acquisitions. Land acquisitions are conducted through a 
comprehensive process that typically takes five or more years from 
requirement identification to final execution. The Office of The 
Secretary of Defense must approve all land acquisitions above 1,000 
acres or $1 million. Also, once a requirement is identified, the Army 
must conduct a detailed analysis and prepare documentation in 
compliance with the National Environmental Policy Act. These factors 
make the acceleration or expansion of land purchases too risky, and 
therefore, the Army would not recommend additional funding for land 
purchases above the projects that are submitted through the Army 
Military Construction Budget Request.
    It is important to stress that land acquisition is generally sought 
only when the other tools available to support mission requirements 
have been exhausted (such as better use of existing land assets, use of 
other federal lands, and compatible use buffers). Because of the long 
lead times and uncertainties associated with land acquisition, and the 
fact that they represent in a sense our `last resort' option, we deeply 
appreciate Congressional support for programmed land acquisitions when 
they are requested through the Army Military Construction Budget 
process.
    Ms. Giffords. What acquisition method is preferable for each of 
your services from a land management standpoint?
    Secretary Eastin. The Army's preferred methods are donation, 
exchange, and purchase of lands for fee title. The extent of the 
interest to be acquired in real property is dependent on the use of the 
property. Where the use is to be exclusive, then the acquisition in fee 
is the more prominent method; however, where a joint use, or a use 
right is identified, then an interest less than fee is appropriate, 
such as an easement, lease, license, permit, or right of way.
    While fee title is our preferred method, land acquisition methods 
are selected on a case-by-case basis. Our preferred approach is adapted 
to the facts of the case, based on feedback from willing landowners, 
and the process of good-faith negotiations.
    Ms. Giffords. The current footprint of Davis-Monthan Air Force base 
has remained constant but potential encroachment threatens the future 
of the base. On the southeastern approach, residential development is 
stopped by a major thoroughfare. On the northwestern approach, however, 
there is room for land development. As we seek to balance the needs of 
Tucson with the essential mission of D-M, what is the Air Force's plan 
to protect the D-M departure corridor from further encroachment and 
remediate current issues to ensure the base can continue to house the 
missions of the future?
    Mr. Billings. Davis-Monthan AFB (DMAFB) is actively engaged with 
the local community in addressing encroachment issues in the following 
ways:
    1. The Arizona Department of Commerce sponsored a Joint Land Use 
Study (JLUS) through OSD's Office of Economic Adjustment to proactively 
work with stakeholders near AZ military installations. The JLUS, 
published by the Arizona Department of Commerce in November 2004, 
established recommended compatible land use criteria for areas within 
(a) the high hazard zones, the approach/departure corridor and (b) the 
65Ldn hypothetical noise contour and higher. The JLUS recommendations 
are a long-range planning tool that considers safety and environmental 
noise generated by aircraft operations when making zoning decisions 
that remain compatible with the DMAFB mission. The JLUS recommendations 
were incorporated into (1) City of Tucson Land Use Codes and adopted by 
Mayor and Council in October 2004 and (2) Pima County Zoning Land Use 
Codes and (3) adopted by the County Board of Supervisors in December 
2008. The land use codes provide future compatible development within 
the approach/departure corridors.
    2. Davis-Monthan AFB, the City of Tucson and Pima County, are 
members of the Military-Community Relations Committee (MCRC). The MCRC 
was established as an advisory committee to provide a forum for raising 
and discussing concerns, joint problem solving and education focusing 
on military and community issues.
    3. Davis-Monthan AFB has pro-actively worked to identify the area 
in the future that might be impacted by a mission change. The current 
aircraft flown are among the least noisy in the AF inventory. 
Recognizing a change in aircraft or mission could result in larger 
noise contours, DMAFB initiated a study at the request of local 
government in 2002 to define noise contours based upon operations with 
and existing aircraft that would be closer to a new single engine 
fighter in noise impact. Hypothetical noise contours were developed 
using AICUZ noise methodology and based upon the operation of five 
squadrons of F-16 aircraft at DMAFB using the current flight paths. The 
hypothetical contours provide a better representation of noise impacts 
from possible future operations at DMAFB and were incorporated into the 
JLUS recommendations.
    Ms. Giffords. Given the current recession and the general decrease 
in demand for land and development, are you considering spending more 
funds now on additional real estate purchases to take advantage of the 
decreased prices? Could you execute additional funds if this Committee 
decided to provide them?
    Mr. Billings. The timing of Air Force real estate purchases is 
based on mission driven requirements and timelines independent of real 
estate market conditions. In exercising good stewardship of taxpayer 
funds, the Air Force only purchases property when the mission requires 
that level of real estate control so that we do not have idle, 
unutilized, or otherwise unproductive real estate in the Air Force 
inventory. However, when purchasing real estate for a validated mission 
requirement we seek to obtain maximum value for the taxpayer.
    We have had considerable success with implementation of the 
community land use planning approach and have successfully collaborated 
with local communities using the anti-encroachment land acquisition 
authority in 10 USC 2684a with Readiness and Environmental Protection 
Initiative funds provided by Congress. We would encourage Congress to 
continue supporting and funding this program.
    Ms. Giffords. What acquisition method is preferable for each of 
your services from a land management standpoint?
    Mr. Billings. The Air Force policy is to acquire the minimum 
interest in land required to support mission requirements. In 
determining the acquisition method, we consider the purpose, when, and 
for how long the real estate is needed. We first consider using Air 
Force real estate already in the inventory or property excess to the 
requirements of other military departments or other federal agencies. 
Fee simple purchase is considered when constructing permanent 
improvements, the intended use is of an extended or indefinite 
duration, or when the Air Force feels current local community land use 
controls are not adequate to provide compatible land use jurisdiction 
needed to support the mission. Acquisition by lease is considered for 
short duration mission requirements where acquisition by purchase is 
not economical. A restrictive easement may be acquired if the purpose 
is to control development adjacent to or near an installation that is 
incompatible with the mission.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BUTTERFIELD
    Mr. Butterfield. The Navy has been extremely accessible throughout 
this process, and I thank them for their efforts. The Navy has stated 
that it would not build an OLF in a community where it was not welcome. 
Would there be any objection to the inclusion of legislative language 
prohibiting the military from building on a site without first 
demonstrating strong support from the hosting community?
    Mr. Arny. The Department would have significant concerns about any 
proposed legislative language prohibiting the military from carrying 
out a project to meet a national defense requirement without first 
demonstrating strong support from the hosting community.
    During the site selection process and into the present, Navy 
representatives have stated the Navy's desire to provide some mutual 
benefit for the community in the vicinity of the selected site for the 
OLF. Those representatives have consistently asserted that the Navy, 
working with federal and state officials, would like to create 
conditions where a community would actually prefer that their site 
would be selected, due to economic advantages provided. No Navy 
representative, however, has ever intentionally stated that the Navy 
would not build an OLF in a community where it was not welcome.
    The Navy recognizes the potential impacts of the proposed OLF on 
the local communities at each of the five proposed sites in North 
Carolina and Virginia and is analyzing those potential impacts very 
carefully in the ongoing Environmental Impact Statement. The Navy also 
recognizes that there may be no feasible site to meet this naval 
aviation training requirement that does not have a certain degree of 
opposition. But the Navy will continue to work with public and private 
agencies and organizations, and with elected and appointed officials at 
the local, state, and federal level, to identify economic opportunities 
for the proposed OLF site that would be compatible with aviation 
training operations and align with community plans for growth and 
development.
    Mr. Butterfield. You mentioned as you have in previous meetings 
with me that this process would engage the Office of Economic 
Adjustment, but to date I'm still not clear on how that process would 
work should the OLF be sited in my district. Therefore, my constituents 
still lack a clear sense of any upside. Can you offer some specifics on 
how the Office of Economic Adjustment would work with local and state 
governments?
    Mr. Arny. The Office of Economic Adjustment (OEA) manages and 
directs the Defense Economic Adjustment Program, and assists states and 
local governments impacted by Department of Defense program changes in 
planning community adjustments. Following an OLF basing decision by the 
cognizant Military Department, OEA will work with affected 
jurisdictions to tailor an appropriate community adjustment program to 
address the impacts of that basing decision. The assistance provided 
may include technical and financial assistance, including compatible 
use studies and fiscal impact analyses, and will require the 
participation, cooperation, and commitment of the affected state, 
community and Military Department.
    Mr. Butterfield. The Navy has been extremely accessible throughout 
this process, and I thank them for their efforts. The Navy has stated 
that it would not build an OLF in a community where it was not welcome. 
Would there be any objection to the inclusion of legislative language 
prohibiting the military from building on a site without first 
demonstrating strong support from the hosting community?
    Secretary Penn. The Department would strongly oppose any proposed 
legislative language prohibiting the military from carrying out a 
project to meet a national defense requirement without first 
demonstrating strong support from the hosting community.
    During the site selection process and into the present, Navy 
representatives have stated the Navy's desire to provide some mutual 
benefit for the community in the vicinity of the selected site for the 
OLF. Those representatives have consistently asserted that the Navy, 
working with federal and state officials, would like to create 
conditions where a community would actually prefer that their site 
would be selected, due to economic advantages provided. Navy 
representatives have never intentionally created the perception that 
that the Navy would not build an OLF in a community where it was 
unwelcome.
    The Navy recognizes the potential impacts of the proposed OLF on 
the local communities at each of the five proposed sites in North 
Carolina and Virginia and is analyzing those potential impacts very 
carefully in the ongoing Environmental Impact Statement. The Navy 
recognizes that there may be no feasible site to meet this training 
requirement that does not have a certain degree of opposition. But the 
Navy will continue to work with public and private agencies and 
organizations, and with elected and appointed officials at the local, 
state, and federal level, to identify economic opportunities for the 
proposed OLF site that would be compatible with aviation training 
operations and align with community plans for growth and development.
    Mr. Butterfield. You mentioned as you have in previous meetings 
with me that this process would engage the Office of Economic 
Adjustment, but to date I'm still not clear on how that process would 
work should the OLF be sited in my district. Therefore, my constituents 
still lack a clear sense of any upside. Can you offer some specifics on 
how the Office of Economic Adjustment would work with local and state 
governments?
    Secretary Penn. The Office of Economic Adjustment (OEA) manages and 
directs the Defense Economic Adjustment Program, and assists states and 
local governments impacted by Department of Defense program changes in 
planning community adjustments. Following an OLF basing decision by the 
cognizant Military Department, OEA will work with affected 
jurisdictions to tailor an appropriate community adjustment program to 
address the impacts of that basing decision. The assistance provided 
may include technical and financial assistance, including compatible 
use studies and fiscal impact analyses, and will require the 
participation, cooperation, and commitment of the affected state, 
community and Military Department. Further questions about OEA programs 
should be referred to their staff.

                                  <all>

</pre></body></html>
